<html>
<title> - INDIAN EDUCATION SERIES: ENSURING THE BUREAU OF INDIAN EDUCATION HAS THE TOOLS NECESSARY TO IMPROVE</title>
<body><pre>[Senate Hearing 113-523]
[From the U.S. Government Publishing Office]




                                                    S. Hrg. 113-523
 
                 INDIAN EDUCATION SERIES: ENSURING THE 
                  BUREAU OF INDIAN EDUCATION HAS THE 
                       TOOLS NECESSARY TO IMPROVE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 




                          U.S. GOVERNMENT PRINTING OFFICE
92-271 PDF                     WASHINGTON : 2014                          
         
_______________________________________________________________________________________        
     For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  

   
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2014.....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Heitkamp....................................    16
Statement of Senator Johnson.....................................    13
Statement of Senator Murkowski...................................    14
Statement of Senator Tester......................................     1

                               Witnesses

Benally, Timothy, Acting Superintendent, Navajo Nation Department 
  of Dinee Education.............................................    31
    Prepared statement...........................................    33
Brady, Thomas M., Director, Department of Defense Education 
  Activity, U.S. Department of Defense...........................     6
    Prepared statement...........................................     7
Brewer, Hon. Bryan, President, Oglala Sioux Tribe; accompanied by 
  Dayna Brave Eagle, Director, Tribal Education Department.......    21
    Prepared statement...........................................    24
Monette, Melvin, President-Elect, National Indian Education 
  Association....................................................    41
    Prepared statement...........................................    43
Roessel, Charles M., Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................     3
    Prepared statement...........................................     4

                                Appendix

Horse, Jon Whirlwind, President, Dakota Area Consortium of Treaty 
  Schools, prepared statement....................................    60
Nez, Angela Barney, Executive Director, Dinee Bi Olta School 
  Board Association, Inc., prepared statement....................    53
Response to written questions submitted by Hon. Jon Tester to:
    Melvin Monette...............................................    66
    Charles M. Roessel...........................................    69
Response to written questions submitted by Hon. Tom Udall to 
  Charles M. Roessel.............................................    71
Tuba City Boarding School Governing Board, letter to Sally Jewell    64
Yazzie, Albert A., President, Crystal Boarding School Board of 
  Education, prepared statement..................................    62


 INDIAN EDUCATION SERIES: ENSURING THE BUREAU OF INDIAN EDUCATION HAS 
                     THE TOOLS NECESSARY TO IMPROVE

                              ----------                              


                        WEDNESDAY, MAY 21, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:03 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. Now I want to call the Committee to come to 
order. Today the Committee will examine the issues and 
challenges facing the Bureau of Indian Education at the 
Department of the Interior.
    About 41,000 students are educated in BIE schools each 
year. It is critical that we make sure those students are 
getting the support they need to succeed in the classroom. This 
will be the Committee's third haring on Indian education this 
Congress. The previous two hearings looked at early childhood 
education and education of our Indian students in public 
schools. I look forward to continuing these hearings and 
identifying a path forward, whether that is through legislation 
or administrative solutions, to improve education across Indian 
Country.
    Last year, the secretaries of Education and Interior 
convened at the American Indian Education Study Group to 
propose reforms to the BIE system that seeks to improve student 
achievement. Today, we will hear from the BIE on their proposal 
of redesign.
    I would like to note that while the Committee appreciates 
Dr. Roessel's attendance here today, we are disappointed that 
Secretary Jewell was not able to attend in person. It was one 
year ago that she testified before this Committee and stated 
that Indian education is an embarrassment. This Committee has 
had hoped she would appear today to discuss the efforts being 
made by the Department to improve BIE and provide us a renewed 
commitment to improving Indian education.
    In addition to the BIE, we will hear from the Director of 
the Department of Defense Education Activity. The DoDEA and the 
BIE are the only two federally-operated school systems 
operating in the United States. While they have no schools in 
Indian Country, the Department of Defense has approximately the 
same number of schools as the BIE. Yet their proposed 
replacement school construction budget for next year is $315 
million, compared to the BIE's request of $2 million. Clearly, 
there is a need for school construction in Indian communities. 
I am disappointed that we continue to have this conversation 
year after year. I hope the DoD can share with us information 
about their programs and perhaps provide some ideas on how to 
help the BIE improve their school systems.
    The Department of the Interior is not solely to blame for 
the challenges that the BIE faces. I often say that when you 
point a finger at someone there are three fingers pointing 
right back at you. So I look forward to working with our 
Committee members, tribes, tribal leaders and BIE and the 
Office of Management and Budget to ensure that every student in 
Indian Country has the tools necessary to succeed.
    I want to thank our witnesses for joining us today. I look 
forward to the testimony. Senator Barrasso, you have the floor.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman.
    I would just like to second the comments that you made, and 
I appreciate your holding this hearing. We both know Indian 
children have a remarkable capacity to learn. Many Indian 
children excel at school, grow up to become teachers, business 
owners, doctors, lawyers, and government leaders. The Federal 
Government has important responsibilities in educating Indian 
children. But what we do not see is consistent, successful 
academic achievement at the Bureau of Indian Education schools.
    As you mentioned, Mr. Chairman, on May 15, 2013, in 
testimony before this very Committee, Secretary of Interior, 
Secretary Jewell, referred to Indian education as an 
embarrassment. In recent years, both the Government 
Accountability Office and the Department of the Interior 
Inspector General have echoed her comment. These offices have 
found a lack of consistent leadership. They have found 
deteriorating facilities. They have found poor management at 
the Bureau of Indian Education.
    So I look forward to hearing what progress the Department 
has made in addressing these issues and improving student 
achievement.
    With that, I want to welcome the witnesses and look forward 
to their testimony. Thank you, Mr. Chairman.
    The Chairman. Do any other members have opening statements?
    Okay, I would like to welcome our first panel. I would like 
to remind the witnesses, you have five minutes. Your entire 
testimony will be part of the written record. If you stick 
close to that five minutes, we will be able to ask you some 
interesting questions.
    Dr. Roessel is the Director of the Bureau of Indian 
Education at the Department of the Interior, our first 
panelist. And then Mr. Thomas Brady, who is the Director of the 
Department of Defense Education Activity. These folks are going 
to be representing the Administration as the only two 
federally-operated school systems in the Nation.
    Before you start your testimony, Dr. Roessel, well, go 
ahead. Just go ahead with your testimony.

  STATEMENT OF CHARLES M. ROESSEL, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Roessel. Good afternoon, Chairman Tester, Vice Chairman 
Barrasso and members of the Committee. Thank you for the 
invitation to testify and provide the Department of the 
Interior's vision for Indian education.
    Indian education runs through my blood. I am a Navajo from 
Round Rock, Arizona, and I come from a family of educators. My 
parents helped begin the first tribally-controlled school and 
the first tribal college. I attended Rough Rock Demonstration 
School and later became the superintendent of this tribally-
controlled school.
    I have taught at Navajo Community College, which is now 
Dine College. I view the Bureau of Indian Education not as just 
another school system, but my school system.
    Today we are here to answer, does BIE have the tools to 
improve. This begs the question: what are we crafting with 
these tools? Let me say what we are not trying to build with 
these tools. We will not build a bigger bureaucracy that 
ignores outcomes and accepts mediocrity. We will not bombard 
tribes with endless mandates and infringe on their sovereignty. 
We will not continue to fail.
    Every tool that the BIE employs must be for the explicit 
use of creating successful American Indian students to take on 
an ever-increasing global society with a passion and pride, 
knowing their Native language, history and culture.
    In September, 2013, Secretary Jewell and Education 
Secretary Duncan convened the study group. To begin this 
process, we listened to more than 300 tribal leaders, 
principals, teachers, school board members, parents and even 
students from BIA operated schools as well as tribal schools. A 
lot of what we heard was not new. These challenges include 
difficulty attracting effective teachers to BIE schools in 
remote locations, attempts to comply with 23 different States' 
academic standards, resource constraints, organization and 
budgetary fragmentation, and finally, funding tribal grant 
support costs at only 67 percent.
    Based on the internal discussions and tribal consultations, 
the proposed redesign of the BIE focuses on the following four 
pillars of reform: highly effective teachers and principals, 
agile organization environment, budget that supports capacity-
building mission, and a comprehensive support through 
partnerships. At the core of all four of these recommendations 
is the belief that tribes are full partners in the education of 
their students.
    I would like to take a minute to explain how these four 
pillars support each other and are not separate. Let's look at 
pillar one, highly effective teachers and principals. The most 
important tool to students' success is the teacher. BIE and 
tribes need tools to recruit, train and retain highly effective 
teachers. BIE and tribes also need an agile organization that 
is able to respond to the unique challenges with purpose and 
vision, to see around the corner so they can understand and 
analyze the demographic data that might be needed in order to 
hire another kindergarten teacher or a change in standards 
where you may need another science teacher.
    But to make this work, we also need budgets that are 
aligned to the priorities of tribes, schools and the BIE. If 
the focus is on training the teachers we already have, then our 
BIE and tribal budgets must reflect the need for specific 
training in, say, the Common Core State standards. Once 
students, teachers and principals have done their jobs, 
assessments tell us how well. Yet in more than 60 percent of 
our schools we lack the IT infrastructure, both in computers 
and bandwidth, to administer online assessments that are linked 
to Common Core standards.
    And without parental, community and tribal support, these 
efforts are doomed for failure. Our students need the 
collective support from not just schools, but from the tribal 
and Federal community. This is but one example of how these 
pillars are integrated to reform the BIE.
    In conclusion, the tools addressed today are not the tools 
we need for the new BIE. The BIE that reflects a gradual 
evolution from a direct provider of education to a provider of 
customized support to meet the unique needs of each school and 
tribes as they exercise their sovereignty through self-
determination. We are building alongside the tribal nations the 
schools that reflect tribal self-determination as we fulfill 
our commitment to American Indian students attending our 
schools.
    Thank you for the opportunity to testify today. I would be 
happy to answer questions.
    [The prepared statement of Mr. Roessel follows:]

 Prepared Statement of Charles M. Roessel, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Tester, Vice Chairman Barrasso, and Members 
of the Committee. Thank you for the invitation to appear today.
    I appreciate the opportunity to testify and provide the Department 
of the Interior's (``Department'') vision for Indian education in 
schools operated or funded by the Bureau of Indian Education (BIE). 
This is an exciting time for the BIE. We have made a lot of progress 
during the past year and we are hopeful that we have reached a turning 
point in the BIE's history. This Administration is committed to 
providing high-quality educational opportunities for students educated 
in BIE-funded elementary and secondary schools throughout Indian 
Country.
The Bureau of Indian Education
    The BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories. Currently, the BIE directly operates 
57 schools and dormitories and tribes operate the remaining 126 schools 
and dormitories through grants or contracts with the BIE. During the 
2013-2014 school year, BIE-funded schools served approximately 48,000 
individual K-12 American Indian and Alaska Native students and 
residential boarders. Approximately 3,800 teachers, professional staff, 
principals, and school administrators work within the 57 BIE-operated 
schools. In addition, approximately twice that number work within the 
126 tribally-operated schools.
    The BIE has the responsibilities of a state educational agency for 
purposes of administering federal grant programs for education. BIE 
responsibilities include providing instruction that is aligned to the 
applicable State academic standards set forth in the regulations; 
working with the Department of Education to administer education 
grants; and providing oversight and accountability for school and 
student success. BIE is also responsible for ensuring compliance with 
the Elementary and Secondary Education Act of 1965 (ESEA) and the 
Individuals with Disabilities Education Act (IDEA), among other federal 
laws pertaining to educating students.
    The BIE faces unique and urgent challenges in providing a high-
quality education. These challenges include: difficulty attracting 
effective teachers to BIE-funded schools (which are most often located 
in remote locations), the current Interior regulatory requirement that 
BIE-funded schools comply with the (23 different) states' academic 
standards in which they are located, resource constraints, and 
organizational and budgetary fragmentation. A lack of consistent 
leadership--evidenced by the BIE's 33 directors since 1979--and 
strategic planning have also limited the BIE's ability to improve its 
services. Furthermore, over the years, federal American Indian 
education has been contracted or granted to tribes in approximately 
two-thirds of the BIE school system, but the BIE's management structure 
and budget have not evolved to match the BIE's long-term trajectory of 
increased tribal control over the daily operation of schools. 
Currently, the Department is funding approximately 67 percent of the 
need for contract support costs for tribally-controlled schools. Each 
of these challenges has contributed to poor outcomes for BIE students.
A New Vision for the BIE
    The challenges before us are daunting; however, we must have the 
courage to do what is morally right. The Department and the Obama 
administration are fully committed to improving American Indian 
education. In fact, in September 2013, Secretary Jewell and Education 
Secretary Duncan appointed a set of experts to identify the challenges 
and problems faced by the BIE-funded schools, and to develop and 
propose recommendations that will help promote tribal control while 
ensuring that all BIE students are ready for college and career. The 
team combines management, legal, education, and tribal expertise, 
ensuring that the recommendations are grounded in a comprehensive 
understanding of the federal government's trust responsibility as well 
as the elements of effective teaching and learning.
    The team immediately went to work and conducted extensive listening 
sessions with tribal leaders, educators, and community members across 
Indian Country, and analyzed a wide range of primary and secondary 
data. Based on those discussions and that analysis, the team began work 
on a proposal to redesign BIE that reflects the BIE's gradual evolution 
from a direct provider of education to a provider of customized support 
to meet the unique needs of each school and tribe. The BIE redesign 
would re-prioritize existing staff positions and resources to meet 
capacity-building needs in a timely manner, particularly in the areas 
of hiring effective teachers and leaders, strategic and financial 
management, and instructional improvement.
    In April, the team issued draft recommendations for purposes of 
tribal consultation that discuss the systemic challenges facing the BIE 
and how to resolve them. The proposed recommendations aim to provide an 
agile organization that is focused on three core areas:

  <bullet> Sovereignty and Indian Education: Building the capacity of 
        tribes to operate high-performing schools and shape what 
        children are learning about their tribes, language, and culture 
        in schools.

  <bullet> School Improvement: Providing targeted, highly customized 
        technical assistance to schools through School Improvement 
        Solutions Teams that are embedded in the regions and in close 
        proximity to schools.

  <bullet> Responsive Business Operations: Focusing on teacher and 
        principal recruitment, acquisition and grants, facilities, 
        educational technology, and communications under the direction 
        of the Director, BIE, to ensure that the educational 
        requirements in these business lines are addressed 
        appropriately.

    We conducted four tribal consultations regarding the preliminary 
recommendations at BIE-funded schools in Arizona, South Dakota, 
Washington, and Oklahoma. The consultations provided valuable insight 
and comment on the team's draft report and recommendations. The final 
report will incorporate feedback from tribal leaders and other BIE 
stakeholders. Although much work needs to be done, we have taken an 
important first step--the BIE and tribes have agreed on a general path 
forward for the BIE.
Outline of the Proposed Recommendations
    Based on internal discussions and tribal consultation, the proposed 
redesign of the BIE focuses on the following four pillars of reform:

  <bullet> Highly Effective Teachers and Principals--We would identify, 
        recruit, retain and empower diverse, highly effective teachers 
        and principals to maximize the highest achievement for every 
        student in all BIE-funded schools.

  <bullet> Agile Organizational Environment--We would develop a 
        responsive organization that provides the resources, direction 
        and services to tribes so that they can help their students 
        attain high-levels of student achievement.

  <bullet> Budget that Supports Capacity Building Mission--We would 
        develop a budget that is aligned with and supports BIE's new 
        mission of tribal capacity building and scaling up best 
        practices.

  <bullet> Comprehensive Supports through Partnerships--We would foster 
        parental, community, and organizational partnerships to provide 
        the emotional and social supports that BIE students need in 
        order to be ready to learn.

    By focusing relentlessly on the four pillars identified above, the 
proposed redesign would allow us to achieve our ultimate goal: world-
class instruction for all BIE students delivered by tribes and the BIE.
    This effort will focus especially on supporting and building the 
capacity of the tribally-controlled grants schools to improve 
educational outcomes. Tribally-controlled schools face numerous 
challenges in administering programs. DOI and the BIE will work with 
tribally-controlled schools to support implementation of improvements 
initiated from within tribal communities.
    The BIE faces numerous infrastructure challenges. Of the 183 BIE 
schools, 34 percent (63 schools) are in poor condition, and 27 percent 
are over 40 years old. These substandard conditions are not conducive 
to educational achievement, and impact learning opportunities for 
students. As part of the transformation strategy we will develop a six-
year plan aimed at improving school facility conditions, similar to the 
six-year strategy used by the Department of Defense Education Agency to 
successfully replace and upgrade 70 percent of its schools in poor 
condition.
    Information Technology (IT) infrastructure is another major 
challenge. The current lack of broadband access in the majority of the 
BIE school system presents enormous challenges for the BIE. Many BIE-
funded schools are located in the most remote locations in the country. 
Most schools have only a T-1 level of connectivity--entirely inadequate 
to meet the demands of 21st century teaching and learning. By helping 
connect teachers to students and parents--and helping schools share 
classes, curricula, and other resources--broadband-enabled teaching and 
learning has expanded educational opportunities for many students. 
Broadband access is particularly important for schools in remote 
locations because it can mitigate the devastating impact that 
geographic isolation can have on student achievement. It is especially 
critical for the BIE to effectively implement the Common Core State 
Standards as well as a 21st century, computer-based online assessment 
aligned to these new standards. Less than 30 percent of BIE-funded 
schools have the bandwidth and computers necessary to administer these 
assessments. Through this transformation, we will be looking at ways to 
improve broadband access.
Conclusion
    This collective vision for BIE--a vision rooted in the belief that 
all children can learn and that all tribes can operate high-achieving 
schools--would allow the BIE to achieve improved results in the form of 
higher student scores, improved school operations, and increased tribal 
control over schools.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions the Committee may have.

    The Chairman. Thank you for your testimony, Dr. Roessel.
    You are up, Mr. Brady.

 STATEMENT OF THOMAS M. BRADY, DIRECTOR, DEPARTMENT OF DEFENSE 
         EDUCATION ACTIVITY, U.S. DEPARTMENT OF DEFENSE

    Mr. Brady. Good afternoon, Chairman Tester and Vice 
Chairman Barrasso, and distinguished members of the Committee. 
Thank you for the invitation to appear today.
    The Department of Defense Education Activity is responsible 
for ensuring that children of our Nation's active duty military 
families have the knowledge and skills required to meet the 
demands of today's highly-globalized society. DoDEA is a 
quality school system built over the past 60 years to provide 
specific and critical service to our military and DoD civilian 
families across the globe.
    We have done this through the extraordinary efforts of our 
dedicated teachers, administrators, support staff and 
educational leaders. DoDEA schools are highly regarded by our 
military families for the quality of life they provide 
worldwide, and our school system is recognized as a 
contributing factor in the military services' ability to 
recruit and retain our high quality all volunteer force.
    I appreciate the opportunity to participate in this hearing 
and discuss the strategic initiatives DoDEA is implementing 
over the next five years to achieve our vision of becoming a 
world-class school system. We realize that achieving our vision 
requires improvement in two key fundamental areas. We must 
improve what we are teaching our students and we must improve 
how we are teaching it.
    To initiate this process we are increasing the rigor within 
our school system by implementing new and college career-ready 
academic standards. Our new standards will be complemented by 
new curriculum, instructional strategies and assessments. The 
three components will be closely aligned to the academic 
standards to ensure that teaching and learning in every 
classroom is focused on student mastery of not only grade-
essential content knowledge, but also higher orderly thinking 
and communication skills.
    We are also assessing organizational changes to improve the 
support provided to our schools. Through these changes we will 
increase the instructional support provided to our teachers and 
students and improve the effectiveness and efficiency in which 
we provide those services.
    We recognize that for DoDEA to achieve new levels of 
excellence in student achievement, we must raise expectations 
and strengthen accountability throughout our organization. We 
will do so by creating an organization culture that stresses 
two essential conditions: a common belief that all our students 
can and will meet higher standards and a collective sense of 
urgency and obligation that focuses organizational capacity or 
achieving universal academic success.
    DoDEA's increasingly constrained resource environment has 
underscored the need for our planning and budget process to be 
better aligned. We are not only striving to project program 
costs over the long term more effectively, but in anticipation 
of further budget cuts, we continue to identify and pursue 
opportunities to operate our school system more efficiently.
    DoDEA's vision is ambitious and not without real 
challenges. But the Department of Defense and the DoDEA team 
stand committed to meeting those challenges. Within the next 
five years, we intend to be the national leader in preparing 
students for success at the next higher grade level and meet 
the high demands of today's colleges, career and citizenship 
responsibilities upon graduation from high school.
    Thank you again for the opportunity to testify today. I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Brady follows:]

Prepared Statement of Thomas M. Brady, Director, Department of Defense 
             Education Activity, U.S. Department of Defense
Introduction
    Chairman Tester, Vice Chairman Barrasso, and distinguished members 
of the committee, I would like to thank you for inviting me today to 
discuss the Department of Defense Education Activity (DoDEA). DoDEA, as 
one of only two Federally-operated school systems, is responsible for 
planning, directing, coordinating, and managing prekindergarten through 
12th grade educational programs on behalf of the Department of Defense 
(DoD). DoDEA is globally positioned, operating 191 accredited schools 
in 14 districts located in 12 foreign countries, 7 states, Guam, and 
Puerto Rico. DoDEA employs approximately 8,000 educators who serve more 
than 82,000 children of active duty military and DoD civilian families. 
DoDEA is committed to ensuring that all school-aged children of 
military families are provided a world-class education that prepares 
them for postsecondary education and/or career success and to be 
leading contributors in their communities as well as in our 21st 
century globalized society.
DoDEA--A Unified School System
    The DoDEA Headquarters (HQ) serves in several capacities that 
facilitate DoDEA's ability to operate as a unified school system. In 
addition to serving as a DoD Field Activity, DoDEA HQ fulfills 
responsibilities commonly performed by State Education Agencies (SEA) 
and Local Education Agencies (LEA). Similar to an SEA, DoDEA HQ 
establishes system-wide policies, academic standards, assessments, and 
accountability. Similar to an LEA, DoDEA HQ establishes system-wide 
curriculum, instructional frameworks, professional development 
programs, and performs system-wide resource management, facility 
recapitalization, and strategic planning. By virtue of the HQ 
performing the functions of both an SEA and LEA, DoDEA is able to 
operate as a unified school system, achieving system-wide coherence and 
unity of effort in spite of its global geographic dispersion.
    Over the course of the next five years, DoDEA will implement its 
new strategic plan for achieving new levels of school system 
excellence, most importantly in the areas of school performance and 
student achievement. I would like to share with the committee the 
strategic reforms DoDEA is preparing to undertake that are essential to 
achieving excellence in these two areas.
Pursuit of Excellence
    DoDEA's path to achieving new levels of excellence in school 
performance and student achievement will largely be determined by our 
ability to successfully achieve three conditions in every DoDEA school: 
we must establish and communicate high expectations for all students; 
we must ensure all students have access to high-quality educational 
opportunities; and, most importantly, we must ensure all of our 
students achieve high academic standards. To achieve such aspirations, 
we have determined that we must focus our strategic efforts on 
mastering research-based fundamentals essential to improving what we 
teach and how we teach. A key facet of our strategic approach is the 
implementation of a school improvement model that establishes the 
capacity in each school to be an effective catalyst for higher-level 
student learning. The fundamental components of our school improvement 
model are summarized below.
    Standards-Based System: To fulfill our obligation to prepare all 
students to meet the higher demands of today's colleges, careers, and 
citizenship responsibilities, we are taking necessary actions to 
establish a coherent standards-based educational system. Our standards-
based system will enable our students to progressively master 
knowledge, skills, and dispositions essential for success at the next 
grade level and postsecondary success upon graduating. A complex yet 
critical condition of success for our standards-based system is to 
ensure system components--rigorous academic standards, curriculum, 
instruction, assessments, professional development, and technology--are 
properly aligned.
    Rigorous Academic Standards: Over the course of the next five 
years, DoDEA will join the majority of states in implementing the 
Common Core State Standards (CCSS) in mathematics and English language 
arts/literacy. Compared to DoDEA's current academic standards, the CCSS 
are more rigorous and better define the essential content knowledge and 
higher-order thinking skills students should possess at the end of a 
course and/or grade level in order to remain on path for college and/or 
career readiness upon graduating from high school. As such, the CCSS 
will form the foundation from which all other components of DoDEA's 
standards-based system are aligned.
    Curriculum: To ensure our curriculum (course/subject area content) 
remains aligned to the new standards, we will further develop and 
implement a comprehensive, vertically- and horizontally-aligned 
prekindergarten through grade 12 curricular framework. The framework, 
by providing high-quality course content in sequenced units of 
instruction that establish a teaching and learning focus on targeted 
standards, will achieve quality and consistency in what is taught and 
learned in each course, grade level, and in each of our schools.
    Instruction: We recognize that the success of our curriculum 
ultimately depends on the ability of our teachers to deliver rigorous 
and relevant standards-based instruction that progressively develops 
student knowledge, skills, and dispositions. In order for our students 
to master rigorous standards, instruction must be equally rigorous in 
actively engaging and challenging students so that they develop a deep 
understanding of content knowledge and improve higher-order thinking 
and communication skills. Likewise, we will emphasize the importance of 
students understanding the relevance of what they are learning. To the 
greatest extent possible, lessons will require students to apply and 
demonstrate targeted knowledge, skills, and dispositions.
    Assessment: We will also establish a more comprehensive assessment 
system that provides the means to effectively and efficiently measure 
the level at which our students are learning to the more rigorous 
standards. We will consider a full range of assessments to accommodate 
the need for classroom assessments used by teachers to frequently check 
for student learning and the need for common assessments that 
objectively measure the level of student mastery of course and/or 
grade-level academic standards against established performance 
benchmarks. In short, our assessment system will be considered fully 
developed when it serves to effectively: (1) measure student-level 
proficiency in applying/demonstrating targeted knowledge, higher-order 
thinking and communication skills, and dispositions; and (2) improve 
the quality, consistency, and rigor of curriculum and classroom 
instruction.
    Teacher and Principal Professional Development: Research clearly 
demonstrates that teachers and principals have the most influence on 
student achievement within a school. For this reason, we will make the 
professional development of our teachers and principals a top priority. 
Our professional development effort will focus on ensuring our teachers 
and our principals, as instructional leaders, have the requisite 
skills, knowledge, strategies, and beliefs necessary to provide 
rigorous and relevant instruction. In addition to a robust professional 
development program, we will also establish a common instructional 
framework. The framework will promote and model research-based teacher 
and instructional leader practices and skills crucial to planning and 
preparing coherent lesson plans; delivering instruction in a student-
focused, individualized manner that actively engages and challenges 
each student to apply and demonstrate targeted knowledge and skills; 
and creating a classroom environment that enables student higher-level 
learning.
    Student Capacity and Motivation to Learn: Our students' ability to 
successfully adapt to the increased rigor within our system will 
depend, in part, on our ability to build each student's capacity and 
motivation to meet higher academic expectations. We recognize that 
there are many external factors that influence student dispositions and 
contribute to inequities in achievement levels. However, we also 
recognize there is much we can do in the school environment to better 
prepare our students for the learning process and once in-process, 
better meet the unique learning needs of each student. To do so, we 
will ensure our educators are more cognizant of the need to 
individualize instruction to account for differences in student 
learning styles and abilities, to check for student understanding and 
provide feedback on a more frequent basis, and create respectful 
classroom environments where students feel valued, safe, and at ease 
taking intellectual risks.
    Technology: We will increase our emphasis on integrating technology 
throughout our curriculum to improve the ability of our students to 
learn and create in a digital environment. We will do so by continuing 
our efforts to improve and standardize the technology infrastructure 
within our school facilities and by integrating the digital learning 
resources available to students at every grade level. Our transition 
from a teacher-centered, rote-learning model to a blended digital 
environment geared toward student creation hinges on three initiatives. 
First, we will provide high-quality digital materials that comply with 
federal accessibility standards and are accessible to all students and 
teachers, including persons with disabilities and English language 
learners. Secondly, we are implementing a learning management system 
where teachers can leverage their creativity in their lesson planning 
and delivery, providing a consistent student experience. Finally, we 
will provide teachers training on the use of collaborative digital 
tools that allow students to show not just what they know, but what 
they can construct with that knowledge.
    Partnerships: We strongly believe that the success of our school 
system and schools depends on our ability to cultivate the shared 
commitment of community stakeholders. We strongly emphasize the need to 
proactively establish partnerships with parents that empower them to be 
effective advocates and partners in their children's education. As all 
DoDEA schools are located on military installations and central to our 
military communities, we place similar emphasis on the value and need 
for our schools to establish close military-community connections. 
Through community partnerships, our schools are able to leverage 
community resources that serve to improve student educational 
opportunities and help address student social-emotional issues related 
to the military's transient lifestyle and parental deployments. We also 
work closely with the Military Services to remain responsive to their 
constituents' educational concerns and force restructuring and 
infrastructure consolidation efforts. Lastly, we will continue to 
pursue high-value partnerships with public, non-profit, and other DoD 
components that are an integral part of our strategy for providing 
relevant instruction that actively engages students, especially in the 
areas of science, technology, engineering, and mathematics.
    Academic Support Systems: In addition to our educational system 
components, we will also ensure the alignment of two priority academic 
support systems--the DoDEA Accountability and Data Management Systems. 
The two systems work together to convert student performance data into 
meaningful information that clarifies what is impacting student 
achievement and why, so that appropriate action(s) can be taken by the 
appropriate organizational level(s).
    Accountability System: Over the course of the next several years, 
we will strengthen our accountability system to focus the organization 
on achieving standards of excellence in the areas most important to 
becoming a high-performing school system. The accountability system 
framework will articulate ambitious (but achievable) performance 
expectations for our students, schools, and school system. The system 
will consist of a comprehensive set of school system performance 
indicators that: (1) provide evidence of student learning and whether 
students are on track to meet predictive benchmarks along the 
educational trajectory (e.g., reading proficiency at the end of the 
third grade); (2) identify students and schools in need of support; (3) 
establish a laser-like focus on the initiatives, programs, and systems 
most essential to improving student postsecondary readiness for all 
students, including students with disabilities and English language 
learners; (4) provide evidence of improved workforce and system 
capacity; and 5) facilitate acknowledgment of exceptional individual 
and organizational achievement.
    Data Management System: At the core of our school system's 
continuous improvement efforts is the need for valid, reliable, and 
timely student performance data that reflects each student's academic 
performance and progress by content area, grade, and standardized 
assessment. To ensure essential performance data is consistently 
available to the right system stakeholders in a meaningful way, 
especially teachers to facilitate timely instructional decisions, we 
plan to develop and implement a more comprehensive and responsive 
system-wide data management system. This system will serve as the 
``integrity linchpin'' that reliably provides critical student 
performance data from our assessment system to our accountability 
system.
    Culture of Accountability and Raised Expectations: An imperative 
for achieving excellence throughout our school system is an 
organizational culture of accountability and raised expectations for 
all students and their families. We recognize that to grow from good to 
great, every part of our school system must become more accountable for 
improving student and school performance. We must also establish a 
common belief that all students with appropriate services and supports 
are capable of achieving higher academic standards and that our higher 
expectations will positively influence student outcomes. Furthermore, 
for students to achieve their full academic potential, we understand 
that our school system must also meet higher expectations in not only 
ensuring equal access to a rigorous curriculum, but in achieving 
universal student accomplishment and academic success as well. An 
important first step in ``reculturing'' our organization will be to 
develop the cultural competence of our workforce and to provide 
training that will enable the workforce to educate all children 
successfully.
    Educational Facility Capital Investment Program: DoDEA's 
Educational Facility Capital Investment Program coherently identifies 
and prioritizes the sustainment, restoration, modernization, and 
replacement of our school facilities worldwide. By 2021, DoD and DoDEA 
are committed to ensuring all DoDEA school facilities meet DoD's 
acceptable condition standards and are accessible to persons with 
disabilities. The program includes centrally managed inspection, 
requirements determination, and prioritization processes that 
facilitate the inclusion of DoDEA's facility capital investment 
requirements in the DoD Future Years Defense Program, which details 
DoD's five-year (current year and following four years) program 
requirements. The DoD's investment demonstrates its shared commitment 
with DoDEA to achieve and sustain quality DoD school facilities that 
provide safe and secure 21st century learning environments that are 
accessible to all of our students, staff, and their families.
    In summary, the strategic reforms DoDEA plans to implement over the 
next five years are ambitious and complex. While we understand the 
challenges in implementing the reforms are real and should not be 
underestimated, we clearly understand our moral obligation to be 
resolute in their successful execution. The stakes are too high for our 
students and our Nation not to be successful in this endeavor.
Conclusion
    Mr. Chairman, in conclusion, I want to thank you and the members of 
this committee for the opportunity to provide an overview of DoDEA and 
our most important strategic reform initiatives. It is our honor and 
privilege to contribute to the education of the children of our 
military families. The education of all of the children of our Nation's 
heroes must not be among the sacrifices our country asks of them. I 
look forward to your questions.

    The Chairman. And thank you for your testimony, Mr. Brady.
    I will start with teaching vacancies. The BIE has about 183 
schools, DoDEA has about 193 schools. Mr. Roessel, how many 
teaching vacancies do you have in the BIE schools?
    Dr. Roessel. Teacher vacancies?
    The Chairman. Yes, how many positions do you have that 
aren't filled?
    Dr. Roessel. I would not know that number off hand. It 
changes. Right now is when contract renewals are taking place.
    The Chairman. Any idea? Can you give me a ballpark figure? 
Can you give me a number, a percentage?
    Dr. Roessel. I would say based on previous knowledge, we 
probably have 15 to 20 percent vacancy right now.
    The Chairman. Okay, so you don't have that broken out by 
elementary and high school and that kind of stuff?
    Dr. Roessel. No, we do not.
    The Chairman. How about DoDEA? How many vacancies do you 
guys have?
    Mr. Brady. Thank you, Mr. Chairman. At the beginning of the 
year it is usually about 7.5 percent. But during the year it is 
limited to about 1.5 percent because of people's retirements 
and health issues.
    The Chairman. I got you. I believe both of you have housing 
programs, is that not correct?
    Dr. Roessel. That is correct.
    Mr. Brady. We do not provide housing for our teachers. We 
provide housing allowances.
    The Chairman. You provide a housing allowance, not a house.
    Mr. Brady. That is correct.
    The Chairman. So this question is more for the BIE. What 
percentage of your teachers live in tribal-supplied housing?
    Dr. Roessel. For the schools, we would not have that 
number, because a lot of our tribal schools, they operate their 
schools on their own. So we do not know exactly how many 
teachers are living lin tribal housing or BIE-funded housing or 
on their own.
    The Chairman. I got you. So here is what I would like to 
know, so you can get back to me. Get back to me with the solid 
figures on vacancies, and I don't want to know them at the end 
of the year, I want to know them on average. You guys do 
student assessments and how many kids are in your schools, at 
the same time, tell me how many teachers you have. Tell me how 
many you are down, how many are out. And give me an idea on how 
many, what percentage of them housing is provided for.
    The point I am trying to make here is that every tribe is a 
little bit different. But housing is a big deal. If you don't 
have housing, and it is obviously different in DoDEA schools. 
But if you don't have housing, you are going to have a heck of 
a time finding a teacher, that is all. So I kind of want to get 
a grasp or my hands around that, so when we are talking about 
budgeting, we are talking about dollars and how we are going to 
allocate them. Since money is tight, we need to make sure it 
works. If there is a big discrepancy here, we might be able to 
make the case to the folks on this Committee and others to be 
able to plus up some budgetary items.
    With that, I will turn it over to Senator Barrasso.
    Senator Barrasso. I appreciate your line of questioning, 
Mr. Chairman.
    Mr. Roessel, your written testimony recites the significant 
work undertaken for the proposed redesign of the Bureau. This 
redesign will allow the Bureau to provide world class 
instruction for all Bureau students. Could you give me a little 
further information on the time lines, maybe the milestones, 
that are developed as part of your redesign?
    Dr. Roessel. There are some things that we have undertaken 
currently, things that we can do in-house, administratively, 
that are just common sense. Along those lines is the adoption 
of Common Core, aligning curriculum, aligning professional 
development. These are things that we can do in-house, 
internally, as well as then talk to tribes and try to work with 
tribes.
    So part of that process then is already undertaken. Now, 
what we are looking at, trying to do with the study group is 
that we have a few milestones. But we are hoping to try to get 
those recommendations, we have just finished consultations. We 
are still receiving written consultation and comments through 
June 2nd, so we haven't finalized the actual recommendations. 
But again, without a definite time line, what we are looking at 
is trying to look at starting some more of the implementations 
with the new fiscal year. But we cannot afford to wait any 
longer, so we are trying to move forward as fast as we can.
    Senator Barrasso. Just following up on what the Chairman 
had to say, one of the key features of education and the 
proposed design is recruiting and retaining highly effective 
teachers and principals. As you said, Mr. Chairman, housing is 
a big part and component of that. Some States are anticipating 
a teacher shortage in the near future. So I am interested in 
how the Bureau of Indian Education is going to implement your 
recruitment and retention strategy, particularly if there is 
this teacher shortage.
    Dr. Roessel. I think one of the things we are looking at is 
again, the BIE operates 59 schools. The rest are tribally-
controlled, and those teachers in that system are sometimes 
employed by the tribes. So they have that information. We don't 
necessarily have that information of what happens with the 
grant schools or tribally-controlled schools.
    So when we look at the BIE, we look at the openings that we 
have and we are looking for the vacancies, the expansion. But 
when a tribe is looking at trying to hire their teachers, they 
are not, we are not talking back and forth. They are doing that 
on their own. So we wouldn't know the specific data from the 
tribes.
    Senator Barrasso. Mr. Brady, your written testimony notes 
that teachers or principals really have the most influence on 
student achievement within a school. So for that reason, your 
educational system focuses on professional development of the 
teachers, as well as the principals. Can you explain what 
successful recruitment and retention strategies your schools 
have implemented for these professionals?
    Mr. Brady. Thank you, Senator. The 60 years in DoDEA has 
indicated that we are looking for high quality teachers who 
have a passion for service to the Nation, for geographical 
mobility. And we have a tremendous retention rate of teachers. 
They find a number of satisfactions, from working with the 
active duty military and the DoD team.
    Senator Barrasso. And that effort there is one that makes a 
big difference in the schools for the students?
    Mr. Brady. I believe that mission is instilled in every 
teacher that I have seen in classrooms.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso. Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    Dr. Roessel, I have met with several tribal educators from 
across the State that have repeatedly stated that there are 
budget shortfalls for facilities and maintenance funds. These 
schools have had to divert funds from ISEP in order to keep the 
lights on. Can you go into detail on how the BIE will address 
this issue?
    Dr. Roessel. The funding for O&M that comes to the schools 
passes through the BIE, but it originates from the BIA. Right 
now, maintenance is funded at 100 percent, while operations is 
funded at about 50 percent. Because of the uncommonly brutal 
winter that we had, a lot of our schools had to dip into ISEP. 
We have a contingency fund that we use to try to help alleviate 
some of that. But one of the things that we are doing right now 
is doing an assessment of all of our facilities to validate 
what is put into what we have as our data base for facilities 
to see if each school is getting the proper amount of money 
that they should be generating based on square footage.
    Senator Johnson. The Affordable Care Act expanded the FEHB 
coverage for tribal organizations carrying out programs under 
the P.L. 93-638 contracts. The Pine Ridge Indian Reservation 
originally gained control over its schools through 638 
contracts, and then converted to 297 contracts. Dr. Roessel, 
can you explain how the Department came to the conclusion that 
297 schools are not eligible, even though one of the base 
findings of the Tribally Controlled Schools Act was to enhance 
the concepts of the Indian Self-Determination and Education 
Assistance Act?
    Dr. Roessel. When the Department looked at that situation, 
they saw that while the law was specific for the contract 
support or contract schools, schools under contracts, it was 
not specific for tribal grant schools. So we are looking, we 
are working with Committee staff to try to find a remedy for 
this. I believe it was just an oversight. But we are trying to 
find a way to get through this.
    But I think the other thing that is important is that the 
tribe has to first be the person, the entity that decides 
whether it has and wants Federal health benefits. And so we 
don't want to put the school in front of the tribe. So that is 
a concern that we have as we move forward in trying to find a 
remedy to this.
    Senator Johnson. As a follow-up, the tribal schools and my 
office have worked on this issue since 2012, and only just 
recently were we given the original 2012 Solicitor opinion. Why 
has the process been so delayed and how can we move forward on 
this issue?
    Dr. Roessel. Well, I can't speak to why it has been so 
delayed. I can get something back to you in writing with that. 
But we are trying to move forward quickly. It is something that 
has been brought to our attention and we are trying to find a 
remedy for that as fast as we can.
    Senator Johnson. I would appreciate your written statement.
    Mr. Brady, as Chairman of the Mil-Con/VA Appropriations 
Subcommittee, I have been proud to work with DoDEA to fund 
military school construction. Can you share with the Committee 
how the DoD establishes priority lists to ensure facilities are 
in proper condition and what best practices you have learned to 
complete these improvements in a timely manner?
    Mr. Brady. Thank you, Senator. In 2009, we hired a number 
of engineering firms to make independent assessments of all 191 
of our schools: 134 of those schools were in category three or 
category four, fair to poor. So we began, thanks to the DoD 
effort and assistance to devise a five-year capital program 
that weighted the worst to best, in beginning a systematic 
approach to each one of those things, overseen by the troop 
redeployments, et cetera, so that we could best meet the needs 
of our young men and women.
    Senator Johnson. I yield back.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Roessel, let me ask you, as you know, in Alaska the 
situation on how we educate our Native students is different 
than we have here in the Lower 48. The Department of the 
Interior began pulling out of Alaska, beginning in the 1930s. 
In 1985 it formally turned over the last BIA school to the 
State of Alaska. Since that time, with the exception of 
Johnson-O'Malley funds, Congress has prohibited the Department 
from expending BIA funds in the State.
    The Federal trust responsibility then has flowed through 
the Department of Education to Alaska's public schools. There 
is conversation going on now in the State as a result of a 
statement of regulation coming out of Assistant Secretary 
Washburn's office that Alaska tribal lands may be considered 
eligible to be taken into trust. If Alaskan tribal lands are 
taken into trust by Department of the Interior, would BIE have 
the capacity to open BIE schools in the State of Alaska or 
otherwise provide for BIE funding for the education of Alaska 
Native students living in Indian Country?
    Dr. Roessel. I would not be the one to make that decision 
ultimately. But I think I can get back to you in writing in 
terms of what the Department is looking at with that, with the 
current funding, I think it would be very difficult to be at 
that level, just to be honest and frank with you. But I can get 
back to you in writing.
    Senator Murkowski. I would appreciate your looking into it. 
Because again, this is the discussion that is underway in the 
State. I have asked some very directed questions to Mr. 
Washburn about what land into trust for Alaska would mean, it 
would be a change in policy. So I am trying to understand not 
only the impact on our ANCSA lands, but the education piece as 
well. And it doesn't appear to me to be very clear about 
whether or not there would be sufficient capacity, from 
everything that I have learned sitting on this Committee, in my 
12 years here in the Senate. We are not enlarging the pie. And 
if we are not enlarging the pie and yet we are adding more to 
that in terms of responsibility, I am not quite sure how you 
make that happen.
    And I guess a further question would be, given the years of 
complaints about the BIE schools that we have had from Lower 48 
tribal communities, the chairman started off this hearing by 
noting the Secretary of Interior's own comments about the poor 
shape that our schools are in. And really, the schools' 
historic inability to prepare a majority of these young people 
to their full potential. It really does beg the question as to 
whether or not Alaska tribes and Native organizations should 
welcome BIE back to the State of Alaska.
    So I would appreciate your weighing in on this. There is a 
lot obviously that we need to discuss. There is clearly a lot 
that needs to be discussed within Mr. Washburn's office. But if 
you can help us out with that, I would certainly appreciate it.
    One other question for you. You have testified that it is 
BIE's intention to replace and upgrade 70 percent of these BIE 
schools that are in poor condition. Do you have a ballpark 
figure in terms of what that will cost, how many years it will 
take to complete this overhaul of the school facilities?
    Dr. Roessel. The school facilities, there was a report that 
was done through negotiated rulemaking that put that figure at 
about $1.3 billion to repair all of our current structures to 
bring them to a level of acceptable. So that would be about 
$1.3 billion. In terms of the IT infrastructure that we are 
talking about, around $40 million to $50 million is what we 
would need to bring them to a level where they could actually 
take the current assessment that is online.
    Senator Murkowski. Mr. Chairman, I had an opportunity to go 
to, I was in Point Hope in April, a very small whaling 
community in the northwestern part of the State. I decided that 
I wanted to test our fabulous capacity in our Native villages, 
so I Skyped, not Skype, it was VTC with Anuktuvuk Pass School 
in Barrow. It is a larger community. But I wanted to hear 
straight from the kids, because we back here in Washington, 
D.C. are patting ourselves on the back and saying, we are 
expanding our broadband capacity, our kids are coming into the 
21st century. And to use the teenage vernacular, when I asked, 
how does this all work, they basically said, it sucks.
    And I apologize for the terminology, but this is what the 
kids are saying. They are saying, look we have great tools, but 
when you can't access the internet because you have a 
basketball team from another village that has flown in and they 
are staying at the school, and 30 additional students tried to 
get on the system, it crashes. They were in the middle of MAP 
testing.
    The first day, the entire system was down, so they couldn't 
test. The second day, the system is up, they get 25 minutes 
into their testing, it goes down. It is out for 20 minutes. 
Okay, everybody come back again, they are scrambling.
    So when we talk about this great equalizer of what can come 
with broadband capacity, what comes with the tools and the 
apps, I think we need to be very cognizant that a lot of this 
is not coming together in application yet. We have a long ways 
to go before we are patting ourselves on the back when it comes 
to making sure that there is equal access out there.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
witnesses. Tough challenges. I know we have kind of glossed 
over that part of it, but only 52 percent of all Native 
American kids graduate. You have two-thirds of your schools are 
in poor or bad condition. We are failing.
    So I think we need to say that pretty plainly. We are 
failing as educators, and we are failing as leaders and really 
the school board in many ways, which is in this horseshoe. And 
we have to absolutely focus a razor-like attention on getting 
this done. Because education has always been the great 
equalizer in our Country. And these are kids who are getting 
left behind.
    And I just have a quick question, and I know the chairman 
raised some concerns about what is the level of commitment 
within the Administration, what is the level of commitment 
within DOE. These problems aren't new. So when you looked at 
the President's 2015 budget, were you satisfied that the 2015 
budget actually reflected the needs of the BIE schools? Dr. 
Roessel?
    Dr. Roessel. The short answer is no.
    Senator Heitkamp. Right. And I think we hear that all the 
time here at this table, where you represent the 
Administration, and so we are a little tough on you. But we 
expect you to be an advocate within that organization and we 
expect the Administration to respond to these concerns. You 
will never solve this problem if you don't reflect a solution, 
not only in collaboration and all the things we are talking 
about today but in budget.
    You can't fix a school on good hope. You can't hire a 
teacher on please come. You have to be able to get all of the 
resources put together, and that is going to require an 
increase in dollars. I forget the number you provided, but 67 
percent of total costs, there is no other way to get those 
costs made up. And when you do have an unseasonably cold 
winter, and we saw it in our State, where you are taking, you 
are laying off staff, maybe you are not cleaning the school 
until Friday because you have to pay the propane bill.
    So we want you to be an advocate for education. And I met 
you in my office, I was very impressed, very hopeful that we 
are on a path forward. I want to just build on what Senator 
Murkowski is saying. We talked about the importance of 
teachers, and everybody knows, in education it really is about 
teachers. But it also is about facility. It is also about 
broadband. Can you tell me what you are doing, the E-RATE 
program has been successful in connecting some of more remote 
locations to a broadband opportunity. Obviously libraries, who 
has a library any more, you have the internet. And if you don't 
have the internet, you don't have a library. So that is how 
critical this program is.
    Most of us represent, most of us left here represent States 
that are very remote, not as remote as Alaska, I am learning 
every day about the challenges of providing services in Alaska. 
But we want to know what you are doing to encourage the FCC, 
what you are doing to build up broadband.
    Dr. Roessel. I think one of the challenges that faces all 
of our BIE schools, whether it is a BIE-operated school or 
whether it is a tribal grant school, is that to fill out those 
E-RATE applications is very difficult. It is very specific. And 
a lot of our schools, even schools that are in areas where they 
have a greater capacity, they don't have the people that can 
specifically look at those applications and build an 
infrastructure that might be needed at a school.
    So what we have done is try to work with the Department to 
provide that resources to these schools out in the field to 
allow them to do that. I think the other thing is that we have 
been working through this study group, working very closely 
with FCC to try to find a way that we can address this issue. 
We have to do it in two areas. One is, a lot of our schools 
don't know what they don't know. So we need to build that 
capacity so they can build and create the type of school they 
want. Because a school in Arizona may look different than a 
school in North Dakota. So that capacity is needed.
    At the same time, we need to be able then to link 
partnerships in terms of what kind of education they want that 
E-RATE to buy. I think that is something that a lot of schools, 
they never get to that question. They are too busy fumbling 
through the application process and then the deadline passes. 
We need to fix that first problem, which is getting the 
capacity to fill out these applications, but also to have a 
concerted effort where we know where we are going with 
technology.
    I think one of the problems is just as bad, is you get all 
of this and it just sits in a closet somewhere.
    Senator Heitkamp. Is there any capacity-expanding that can 
be done on private-public partnership or within the 
philanthropic world that can actually provide that assistance 
to your agency or the assistance to various schools?
    Dr. Roessel. That is part of the study group has looked at 
how we can build those partnerships, pillar four is all about 
partnerships. And one of those things is to deal with, how do 
we get those partnerships in those areas. People want to give 
to areas that are not served some times. So we are trying to 
build that, and that is a big part of this redesigned BIE.
    Senator Heitkamp. Just one last comment. There is an 
incredible urgency to this.
    Dr. Roessel. Yes.
    Senator Heitkamp. An incredible urgency to this. And I will 
tell you this. You tell kids they are valued every day, but 
they go to a school that is in poor condition, they don't feel 
valued. So if we really are going to begin that process, 
building capacity, building the next generation of powerful 
leaders, we have to change what we do in education. I know you 
personally feel that commitment, and we stand ready to help you 
in any way we can to make that happen. But we are going to 
judge this Administration on what goes in that budget document. 
And we want you to be a strong advocate for these kids.
    Dr. Roessel. Thank you, Senator.
    The Chairman. I am going to ask another round, if you guys 
want you can, or we can go to the next panel. But I have some 
questions.
    Mr. Brady, when it comes to rebuilding schools or new 
school construction, do you have a schedule for that? Do you 
have a list?
    Mr. Brady. Yes, sir, we do. We have a nine-year projected 
list, identified by schools, with some capability to, 
obviously, make changes.
    The Chairman. And that includes retrofit or new 
construction?
    Mr. Brady. Absolutely, yes, sir. Either renovation or new 
construction based on projected needs.
    The Chairman. Dr. Roessel, do you have a list of retrofits 
or new construction from the Department of the Interior?
    Dr. Roessel. We have a priority construction list from 2004 
that we have just now funded for the final school, Beatrice 
Rafferty School, to begin the design process. Beyond that, we 
do not.
    The Chairman. Okay, so how many years out do you have it?
    Dr. Roessel. Well, it was 2004, so you are talking about, 
we are behind. So we don't have a list going forward for new 
construction.
    The Chairman. I got you. And I think it is pretty important 
to dovetail onto what Senator Heitkamp was talking about. Two-
thirds of your schools are fair to poor. And if you don't plan 
for the future, you certainly aren't going to be able to 
address that issue. I am not saying the DoD is doing a 
marvelous job, but they are certainly doing a better job in a 
nine-year program out.
    We have to demand better. We just have to demand better. If 
we don't, we are never going to pull Indian Country out of 
poverty. It is never going to happen. It is just never going to 
happen. Maybe it is because I am a former teacher that I say 
that, but the truth is, this is the key. And by the way, the 
Department of Defense has some advantages you don't have, 
truthfully. A lot of folk here don't understand trust 
responsibility. They do understand what happens when you put 
soldiers in the field. But that is not an excuse. You have to 
stay diligent.
    I have another question. It deals with the study group on 
education that was done with the Department of the Interior and 
Department of Education. They were issued some recommendations. 
I am sure you are familiar with the study group. Propose 
incentives for tribes to assume school operation functions from 
the Bureau, can you give me any idea what kind of incentives we 
are talking about, are we talking money or are we talking 
something else?
    Dr. Roessel. We are talking about money. We are talking 
about trying to get tribes to assume, I think tribes have 
historically been able to operate schools, but now we are 
trying to get them to do additional things.
    The Chairman. So are we talking a per student allowance, or 
are we talking per tribe allowance? How are these incentives 
allocated?
    Dr. Roessel. I think the incentives we are looking at right 
now is to begin by offering it as a competitive grant. Because 
only those tribes that would want to engage in that process to 
be able to initiate those reform efforts.
    The Chairman. So it would be a lump sum figure?
    Dr. Roessel. Yes.
    The Chairman. I am just trying to flesh out how far along 
they are. Have they developed criteria to determine which 
tribes are ready for it? Because some tribes could take it over 
and it would be worse. Some tribes could take it over and it 
could be a heck of a lot better.
    Dr. Roessel. Yes. Well, we have looked at that. We have 
looked at a way to not only start that process, but it also has 
to be sustainable. One of the problems we have is that we give 
a grant, we start and then it ends. So what we have looked it 
is trying to find, how do we make that sustainable. We have 
done that by saying, a tribe that has three or more schools, 
they inherently are able to probably operate as a school 
district and then it becomes sustainable.
    The Chairman. Were you in on the consultation that happened 
on this proposal?
    Dr. Roessel. Yes.
    The Chairman. What was the tribe's perspective on the grant 
process? On granting dollars versus per pupil?
    Dr. Roessel. In terms of this incentive grant, most of them 
were supportive of it. They were supportive of that, yes.
    The Chairman. Of the incentive grant?
    Dr. Roessel. The idea behind at least the concept of it.
    The Chairman. Okay. One more thing here. This is for you, 
Mr. Brady. It deals with what you are doing as a federally-
operated school versus what the Department of the Interior is 
doing. And I know we are comparing apples and oranges. We are 
comparing areas that are in much more severe poverty than 
others. But are there things that you do from a DoDEA 
standpoint that you could offer to the Department of the 
Interior that might offer them some success, opportunity for 
success, I should say?
    Mr. Brady. Thank you, Mr. Chairman. We are certainly 
working and coordinating with the BIE. It is a remarkably 
complex issue, but I think in the strategic planning area and 
the commitment to resourcing area and the excellence at the 
school level, we can certainly pass along our best practices, 
absolutely.
    The Chairman. I would appreciate that.
    Senator Johnson, do you have anything else?
    Senator Johnson. One more question for Mr. Roessel. I 
noticed you made reference to competitive grants. It sounds 
like to me Race to the Top, which is entirely unpopular in 
South Dakota. Because they tend to reward great grant writers 
and great grant writers don't necessarily lead to education 
improvements where they are needed.
    Could you comment on that? Is there a correlation between 
grant writers and grants?
    Dr. Roessel. Well, I agree with the comment. I think though 
what we are trying to do here is something which is a little 
different in that the purpose of this grant would be to 
actually allow tribes that ability to operate and exercise 
sovereignty over their school system. So it is not so much a 
grant-writing process, it is looking at, what are those ideas, 
what are those problems and challenges that have kept our 
school systems from succeeding. And some of them are 
structural. Some of them are that we have 127 directions.
    So what we are trying to do is see how we can help the 
tribe be able to better control and operate their schools. That 
is a very different concept than Race to the Top. What we are 
saying to tribes is, how can we try to help you do a better job 
of operating your schools, not having the BIA come in and tell 
you, do this or do that. So I think it is not so much based on 
a grant writer, it is more based on the idea. I think tribes 
know how to exercise their sovereignty, they understand what it 
means for self-determination.
    So I think what we are trying to do is something very 
different from rely on just a grant writer. But we are trying 
to actually empower by saying, what do you want. How do you 
want to control your education. What do you want your students 
to look like at the end of the sixth grade, twelfth grade, 
college. And empowering them to give that money so that they 
can create that structure within their tribe.
    The Chairman. Thank you, Senator Johnson.
    Before I let you go, I love you both. I think you both do 
great work. But let me give you some statistics. My staff 
contacted the Department of the Interior 30 days ago to let the 
Department know this hearing was going to take place. We sent 
an official invitation 19 days ago. I took this issue up with 
Secretary Jewell when she was in Montana a few months ago. The 
Department once again was unable to provide this Committee with 
testimony in a timely manner.
    And I will tell you, Committee aside, it almost appears 
that we have a systemic problem here. The problem is that we 
don't have lists on school construction, we don't have lists on 
teachers that are not there, this is pretty basic stuff. We 
don't get our Committee hearing stuff in on time so we can take 
it and scrutinize it. And I am telling you, I don't like to 
beat up on administrative officials. You guys have a tough job. 
I have an incredible amount of respect for Secretary Jewell.
    But by the same token, sitting beside you is the Department 
of Defense, who was able to provide the testimony by the 
requested deadline, and quite frankly, I am growing weary of 
the fact that when we have hearings, the Department should know 
by now we have an Indian Affairs Committee meeting every week. 
It is a rare exception when we don't. And we would like to get 
the testimony in one time. I think it is a courtesy to my 
staff, to the minority staff and to the members of this 
Committee that it gets in on time.
    I would just like you to take that message back. Because it 
is not going to get better with time if we continue to be tardy 
with this stuff. It is important. We need it. And I appreciate 
your work, I really do. You do good work and I appreciate both 
of your work. We need to be prouder of it.
    So thank you both. I appreciate your coming in very, very 
much. Thank you.
     Now we will get the second panel up. I would like those 
folks to come forward. Our first witness is the Honorable Bryan 
Brewer, President of the Oglala Sioux Tribe in South Dakota. 
Our second witness is Mr. Timothy Benally, who is the Acting 
Superintendent of the Navajo Nation Department of Dine 
Education. And finally, Mr. Melvin Monette is the President-
Elect of the National Indian Education Association from the 
Turtle Mountain Band of Chippewa Indians of North Dakota.
    I want to welcome you here today. I would ask Senator 
Johnson if he has any comments about Bryan Brewer, and I would 
also ask Senator Heitkamp if she has any comments about Melvin 
Monette. Senator Johnson?
    Senator Johnson. President Bryan Brewer is an excellent 
leader of the Oglala Sioux Tribe. He has been at it for several 
years, and welcome, President Brewer.
    Senator Heitkamp. I would just say that the Turtle Mountain 
Band of Chippewa have a rich history of producing greater 
tribal leadership, especially in education. We know your people 
well. My niece and nephew were enrolled. And I certainly 
appreciate all the leadership you provide, especially on this 
critical issue. Thank you.
    The Chairman. Thank you, both Senator Johnson and Senator 
Heitkamp. I want to welcome all of you. You have five minutes 
for your testimony. Your full written testimony will be a part 
of the record. If you can keep it to five minutes, it would be 
good.
    With that, you may begin, President Brewer.

STATEMENT OF HON. BRYAN BREWER, PRESIDENT, OGLALA SIOUX TRIBE; 
               ACCOMPANIED BY DAYNA BRAVE EAGLE, 
             DIRECTOR, TRIBAL EDUCATION DEPARTMENT

    Mr. Brewer. Thank you. [Greeting in native tongue.]
    I would like to thank you, Mr. Chairman, Vice Chairman, and 
I would like to thank the members of the Committee. It is an 
honor to be here. This is my first time ever, and I must say 
that I am a little nervous.
    I would like to say that I have been the President of our 
tribe for a year and a half. I am a formally educated teacher, 
principal, just like Mr. Tester. So I think we both know the 
challenges of those positions.
    I would like to also say that I am the Secretary of the 
Great Plains Tribal Chairmen's Association, and I am speaking 
for many of those tribes.
    The first thing I want to say is, and I know we get tired 
of saying this, but we are here because of our treaties. And we 
ask the Federal Government to honor that, to meet our treaties, 
to meet that trust responsibility. This hearing, the title of 
this hearing, I believe is wrong. I believe it should be, how 
do we ensure that our tribal schools have the tools necessary 
to improve educational opportunities for our students.
    I worked for the BIE for many years. I have been frustrated 
a good part of those years with the funding that we received. 
It was not good. One of the things that we fail to note, the 
Pine Ridge Reservation, we are the second largest tribe in the 
United States, next to the Navajo. But yet Pine Ridge is the 
poorest tribe in the United States. With that comes the poverty 
and the many problems and the ills that go with that.
    I see our children coming to school every day with 
problems. They come in abused, physically abused, mentally 
abused, sexually abused. They come to school hungry.
    As an educator, this is very difficult. Because of 
everything that we already do, and all the rules that we have 
to follow, the laws, we are not able to meet those students' 
needs, our children's needs. How can they learn when they come 
to school with these problems?
    Yet the BIE does not recognize this, and makes no attempt 
to meet the needs of these children that come to school with 
those problems. How can our children learn when they are hungry 
or they have been abused?
    Yet we don't worry about that. We talk about other things. 
No Child Left Behind, we need another assessment. We have many 
problems.
    One of the things the BIE, they control, they administer. 
This has been one of the problems that we face. It is time that 
the Native people, we say it is time for us to decide what our 
children will learn and how they will learn it. Because it has 
been a failure so far.
    We said that 50 percent of our children do not graduate 
from school. That is even worse for our children that live off 
the reservation. As the president of the tribe, I am concerned 
about the children on the reservation, and I am also concerned 
about our children who live off the reservation. In Rapid City, 
there are 15,000 Indians who live there, and the dropout rate 
is 85 percent.
    They are going to Rapid City, and not to point fingers, but 
what can we do, even with our problems, we have our children in 
Rapid City and urban areas that we are losing. They are 
receiving a lot of Impact Aid monies, but where does our money 
go? Does it go to help the children? No, it builds new track 
fields, new buildings, things like that. So there are a lot of 
things.
    Mr. Roessel is here, and I want to work with him, we need 
to work with him. But I want Mr. Roessel to be our superstar. 
Because we haven't had a superstar in a while. We need someone 
to come before this, we need someone to fight for us and 
demand. I know it is difficult and I talked to Dr. Roessel 
about this before, and we have our own people. It makes it 
tough because we have to protect the program. But he has to 
protect the BIE. I think it is time that the BIE work with the 
tribes and become the fighter for us, give us our rights. We 
have trust responsibility of our people.
    So I am asking Mr. Roessel, be our superstar. Work hard for 
us and demand that our treaties be met. Demand that our 
children be given what they need. That is what is going to 
happen, and I have faith in him. Because he has been through 
this. He has experience and he has the background.
    One of the things I want to talk about is the immersion. I 
know Mr. Ryan Wilson has been before all of you. And in 25 
years, the Lakota in Pine Ridge are going to lose their 
language. We need help. We need help with this. Yet the BIE has 
been teaching the Lakota language in our school since the early 
1970s. And the BIE has not produced one single speaker yet. 
Because they don't listen to us.
    Turn that over to the tribes. Let us decide how our 
children will be taught the Lakota language. Right now they are 
getting schools, when they are babies, we are getting them into 
our day care centers, and we have Lakota speakers with them. So 
the babies, they are listening to the Lakota language and they 
are learning. And most of the parents are young, and we would 
like to see our young people learn with their children, learn 
our language, have programs for them. Then when they do get to 
school, there will be a curriculum built for them. When all of 
our curriculum on the reservation, the things that I would 
really like to talk about is getting tribal control of our 
schools. One of our six different schools plus the BIE, the 
BIE, my mind is going everywhere here, the schools, we have to 
control, we have to say what is there. They are doing different 
curriculums. We are not meeting the needs of our children. We 
have so many children that go from school to school, just 
because of the housing.
    I testified that last year, on housing, I said my tribe, we 
need 4,000 homes. When I got back and I got accurate data, 
which it is hard to get, and I found out that I don't need 
4,000 homes, I need 12,000 homes to meet our needs of our 
people. It is very difficult when you have three families 
living in a home. I feel for our young ladies that don't have a 
room of their own.
    I know when my daughter was growing up, I was lucky, my 
daughter had her own room, she had her own space, which many of 
our children don't. And then there is alcohol and drugs and 
this is where we get some of our problems with our young girls 
being abused.
    [The prepared statement of Mr. Brewer follows:]

Prepared Statement of Hon. Bryan Brewer, President, Oglala Sioux Tribe; 
accompanied by Dayna Brave Eagle, Director, Tribal Education Department
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you, President Brewer. You have a lot 
to say and I appreciate it. You are over time.
    Mr. Brewer. I thank you, and I wish there was a way this 
Committee could come to our reservation, or to the Midwest and 
listen to us, not only listen to the leaders, but also listen 
to some of our educators, talk to some of our students who have 
made it. We do have success stories. And talk to the ones that 
didn't make it.
    The Chairman. We appreciate your bringing your reservation 
to us. Thank you very much, and we appreciate the invitation. 
Thank you for your testimony.
    Tim, you are up.

             STATEMENT OF TIMOTHY BENALLY, ACTING 
   SUPERINTENDENT, NAVAJO NATION DEPARTMENT OF DINE EDUCATION

    Mr. Benally. Chairman Tester and members of the Committee, 
my name is Timothy Benally, Acting Superintendent of Schools at 
Navajo Nation Department of Education. Thank you for this 
opportunity to present testimony on ensuring the Bureau of 
Indian Education has the tools necessary to improve.
    Seventeen school districts operate on the Navajo Nation, 
with a total of 244 schools. Thirty-eight thousand one hundred 
nine Navajo students attend these schools. Over 60 percent of 
these students attend public schools. Of the rest, 
approximately 21 percent attend 31 BIA-operated schools. And 
approximately 18 percent attend 32 grant and one contract 
school.
    BIE operated, contract and grant schools comprise 
approximately 20 percent of all schools on the Navajo Nation. 
These schools operate under different sets of curriculum and 
accountability standards from Arizona, New Mexico, Utah and 
BIE. The Navajo Nation best understands the needs of its 
children but currently lacks the ability to effectively lead 
the education for Navajo children.
    For over 140 years, BIE and State public schools have 
dominated education on Navajo Nation. Today, Navajo students on 
BIE schools are the lowest-performing in the Country. My 
written testimony demonstrates the steadily declining student 
achievement at BIE-funded schools on Navajo. With so many 
accountability systems on Navajo, we cannot get a full picture 
of how our children are performing. We have a shortage of 
highly-qualified teachers, lack professional development 
opportunities and teacher turnover is high. Teacher evaluation 
forms are inconsistent and in some cases, are the same as those 
used for non-instructional staff.
    We have seen some improvement with BIE. BIE has been more 
than proactive in inviting Navajo to the table. BIE realignment 
of the Navajo agency has helped people focus on academics and 
improve fiscal management. BIE seems committed to a focus on 
building capacity. Making reading and math coaches available to 
assist with content knowledge and instruction methods has the 
potential to improve student achievement. Within the last two 
years, BIE has been working closely with Navajo to bring teams 
into the school to work on professional development. It will 
likely take a few years before we see results from these 
efforts.
    Schools on Navajo Nation are in an education crisis. The 
BIA schools and public schools are only responsible for our 
children until they turn 18. When they fail to be productive 
citizens, we are left to pick up the pieces. Our efforts to 
improve education have seen results. Student outcomes for 
students attending tribally-controlled schools on Navajo who 
have consistently enrolled with Navajo Nation have improved at 
a greater rate than schools that have not.
    Tribally-controlled schools who have participated in using 
data processing, UDP training offered by Navajo Nation, have 
demonstrated greater student outcomes than schools that have 
not worked with the Navajo Nation. Tribally-controlled schools 
that have implemented instruction with cultural content 
infusion in math and science have greater academic gains than 
schools that have not implemented cultural infusion content.
    We have plans to improve education on Navajo Nation, but we 
require your help and support. First, Navajo Nation seeks to 
acquire State education agency status for the Department of 
Dine Education. Navajo Nation must have first access to the 
minds of its children. The Navajo Nation is committed to the 
exercise of sovereignty over the education of Navajos. It has 
established Dine education content standards curricula and 
assessment tools in the Navajo language, culture, history, 
government and character development. ESEA data will provide 
uniformity in the currently fragmented education system at the 
tribally-controlled schools on Navajo.
    Second, Navajo Nation has submitted an alternative 
accountability workbook, as authorized under No Child Left 
Behind. The accountability workbook includes the Dine content 
standards. This will enable us to exercise a greater degree of 
authority over education at our tribally-controlled schools.
    Third, we must be able to meaningfully evaluate student 
performance. The Family Education Rights and Privacy Act, 
FERPA, must be amended to allow tribes to access their student 
data. Fourth, language and cultural programs are critical for 
the success of Navajo students. Our research shows that Navajo 
students grounded in understanding of their language and 
culture perform better academically. Congress must provide 
greater support for these important programs.
    Fifth, support higher education funding for scholarship, so 
that we can build capacity on the Navajo Nation. We need an 
educated workforce with professional skills necessary to be 
highly qualified teachers. Navajo Nation provides scholarships 
to eligible students, but less than 50 percent of eligible 
students actually receive an award. Tribal priority allocation 
scholarship funding should be fully funded.
    Lastly, as Congress works on updating the ESEA tribal 
rights to exercise sovereignty, education must be respected and 
encouraged.
    Thank you for your time today. I look forward to answering 
your questions.
    [The prepared statement of Mr. Benally follows:]

 Prepared Statement of Timothy Benally, Acting Superintendent, Navajo 
                  Nation Department of Dinee Education
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, we appreciate your testimony, Mr. 
Benally. Thank you very much.
    We will turn it over to you, Mr. Monette.

 STATEMENT OF MELVIN MONETTE, PRESIDENT-ELECT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Mr. Monette. Chairman Tester, Senator Johnson, thank you 
for convening the hearing on tools needed to improve the Bureau 
of Indian Education.
    I am Melvin Monette, and I, like Dr. Roessel, do call the 
BIE tribal grant schools and tribal colleges and universities 
my education system. And certainly, looking at the faces behind 
you and the faces behind me, the BIE has a number of successes 
that we can count as ours.
    I am President-Elect of the National Indian Education 
association, and a citizen of the Turtle Mountain Band of 
Chippewa Indians. NIA was founded in 1969, and has a mission to 
advance comprehensive educational opportunities for all 
American Indians, Alaska Natives and Native Hawaiians 
throughout the United States.
    I also want to thank you for hearing the collective call of 
tribes and Native communities regarding the need to address the 
current state of Native education. As the Nation celebrates the 
60th anniversary of the Brown v. Board of Education Supreme 
Court decision, we must highlight that our communities are 
still fighting for equal educational opportunities in Native-
serving schools. The renewed commitment of this Committee to 
improve the education system serving Native students is 
critical, as we look to end current disparities and create 
equitable educational opportunities for our students.
    As all of us realize, Native education is in a state of 
emergency. Unfortunately, the Federal Government's own studies 
encompassing Native test scores, treaty-based appropriation 
decreases, and Government Accountability Office reports, among 
others, illustrate the continued inability of the Federal 
Government via the BIE to uphold the trust responsibility.
    The BIE has been failing its mission for years and should 
no longer be in the business of providing direct education 
services to tribal communities. Instead, the BIE should shift 
its capacity to providing educational resources that support 
tribes who wish to administer education services to their 
students. To support this reform, change is critically needed 
within the Department of the Interior to fix the BIE's broken 
system and ensure tribal self-determination is strengthened as 
well as address the persisting issues in the BIE.
    Tribes understand the children's needs best and are suited 
to provide the most effective and efficient services in their 
communities. However, IE reform that supports tribes must begin 
locally and at the direction of our tribal leaders and Native 
education stakeholders. This effort cannot be a top-down 
approach, but a measure created through grassroots support at 
the tribal level. The current proposal for BIE reform, while 
well-intentioned, was not a direct result of tribal 
consultation, but a Department-led initiative that has caused 
concerns to tribes. We appreciate the efforts and ideas, but 
without tribal support at the local level, we cannot expect BIE 
reform to succeed.
    The following recommendations are based on membership 
resolutions and through our work with tribal leaders in Native 
communities. However, it is important to note that NIA is still 
awaiting input from our stakeholders who attended the recent 
consultation sessions on BIE reform. This testimony is to serve 
as input for improving the BIE and not formal comments on the 
Department's reform proposal.
    Key among our recommendations is that the BIE should be 
transformed into an entity that provides technical assistance 
to build tribal capacity where lacking for the administration 
of education services. Assimilation and termination robbed 
tribes of their ability to administer education. As the era of 
self-determination progresses, now is the time for the BIE to 
alter its focus on education delivery into an entity that 
disseminates technical expertise similar to a regional 
education laboratory that would work in partnership with 
tribes, tribal colleges and universities, school districts and 
State departments of education to utilize data and research and 
distribute best practices for improving their students' 
academic outcomes.
    But as the BIE alters its capacity, this reform should not 
increase the administrative burden or drive funds away from 
local assistance. Reforms should not be an internal Bureau-wide 
capacity-building effort set on hiring an influx of staff in 
Washington. Rather, we need a BIE restructuring that supports 
collaborators who will sit with tribal leaders to find local 
tribal solutions.
    As the ESEA, the BIE must have the resources necessary to 
increase its ability to assist tribal schools, whether they are 
implementing full-day language immersion or developing high-
speed internet connectivity. To support such efforts, there 
must be internal support within DOI. We propose this Committee 
work to create a Deputy Assistant Secretary of Indian Education 
position within the DOI. Tribes have spoken clearly that Indian 
education belongs within the Department of the Interior to 
ensure the Federal trust responsibility is upheld.
    While scaling up staff in Washington is unnecessary, we 
need an appointed leader to pursue education reform at the top 
levels of the administration. Our students need a Federal 
leader who understands Native education and has the ability to 
address colleagues and the President on the Federal 
Government's trust responsibility.
    Further, we request that the DOI form a tribal education 
budget council, so education leaders and Federal officials have 
the opportunity to formally address difficult issues facing 
Native education and the BIE. Too often, education falls aside 
as tribal leaders are forced to prioritize more pressing issues 
like fire prevention or community violence. Providing a formal 
negotiating body to address Native education and BIE issues 
will ensure DOI recognizes persisting problems, such as the 
lack of BIE budget authority. I realize BIE reform and the 
state of Native education is a difficult issue, but please know 
that we are here to work with you, to provide ideas for 
addressing these problems. Together, we can make sure that the 
BIE has tools necessary to strengthen tribal self-determination 
and support programs that create student success, like language 
immersion.
    NIA appreciates the continued leadership of this Committee. 
For a full list of BIE recommendations, please see our written 
testimony. Thank you again, and I look forward to addressing 
your questions.
    [The prepared statement of Mr. Monette follows:]

Prepared Statement of Melvin Monette, President-Elect, National Indian 
                         Education Association
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee, thank you for inviting the National Indian Education 
Association (NIEA) to testify. I am Melvin Monette, President-elect of 
NIEA and a citizen of the Turtle Mountain Band of Chippewa Indians. On 
behalf of NIEA, I am grateful for this opportunity to provide testimony 
for the record on ``Ensuring the Bureau of Indian Education (BIE) has 
the Tools Necessary to Improve,'' as part of the Committee's Indian 
Education series. I would also like to thank the Committee for hearing 
the collective call of tribes and Native communities regarding the need 
to address the current state of Native education. The renewed 
commitment of this Committee to focus on improving all education 
systems serving Native students is critical as we work together to 
ensure equitable educational opportunities.
    NIEA, founded in 1969, is the most inclusive Native organization in 
the country-representing Native students, educators, families, 
communities, and tribes. NIEA's mission is to advance comprehensive 
educational opportunities for all American Indians, Alaska Natives, and 
Native Hawaiians throughout the United States. From communities in 
Hawaii, to tribal reservations across the continental U.S., to villages 
in Alaska and urban communities in major cities, NIEA has the most 
reach of any Native education organization in the country.
Native Education Crisis Due to Federal Mismanagement
    As all of us realize, Native education is in a state of emergency 
partly due to the inability of the Federal Government to uphold its 
trust responsibility. Native students lag behind their peers on every 
educational indicator, from academic achievement to high school and 
college graduation rates. Just over 50 percent of Native students are 
graduating high school, compared to nearly 80 percent for the majority 
population. For students attending BIE schools, rates are even lower. 
According to the latest results from the National Assessment of 
Educational Progress (NAEP), BIE schools are among the worst performing 
in the nation. The Federal Government's continued inadequacy in 
directly educating our students hinders our children from developing a 
strong education foundation that prepares them for future success.
Native Student Demographics Snapshot \1\

    \1\ National Center for Education Statistics, Institute of 
Education Sciences, United States Department of Education. National 
Indian Education Study 2011. (NCES 2012-466). http://nces.ed.gov/
nationsreportcard/nies/
---------------------------------------------------------------------------
  <bullet> 378,000, or 93 percent of Native students, attend U.S. 
        public schools, with the remainder attending federally-funded 
        BIE schools.

  <bullet> As of the 2011-2012 school year, there are 183 Bureau-funded 
        elementary and secondary schools, located in 23 states, serving 
        approximately 41,051 Indian students.

  <bullet> Of all Native students, 33 percent live in poverty, compared 
        to 12 percent of Whites (2011-2012 school year).

  <bullet> 29 percent of these students attend high-poverty city public 
        schools, compared to 6 percent of Whites (2009-10 school year).

  <bullet> Only 52 percent of Native students live in two-parent 
        households, compared to 75 percent of Whites (2011).

  <bullet> After the most recent census, only 65,356 Natives ages 25 
        years and older had a graduate or professional degree.

The Trust Responsibility to Native Education
    NIEA's work for more than forty years has centered on reversing 
these negative trends. We are making sure our communities have the 
future leaders needed to help tribes thrive as well as preserve and 
strengthen local cultural and linguistic traditions. This begins by 
providing our future generations' equal educational opportunities that 
prepare them for academic success no matter where they attend school--
tribal grant and contract, charter, or public. As tribes work to 
increase their footprint in education, there must be support for that 
increased participation. The Federal Government must uphold its trust 
responsibility. Established through treaties, federal law, and U.S. 
Supreme Court decisions, this relationship includes a fiduciary 
obligation to provide parity in access and equal resources to all 
American Indian and Alaska Native students, regardless of where they 
attend school.
    The Federal Government's trust corpus in the field of Indian 
Education is a shared trust between the Administration and Congress 
with federally-recognized Indian tribes. To the extent that measurable 
trust standards in Indian education can be evaluated, NIEA suggests 
this Committee refer to the government's own studies encompassing 
Native test scores, treaty-based appropriation decreases, and 
Government Accountability Office (GAO) Reports, among others, which 
illustrate the continued inability of the Federal Government via the 
BIE to uphold the trust responsibility.
Recommendations to Improve the Bureau of Indian Education
    The BIE's mission, as stated in Title 25 CFR Part 32.3, is to 
provide quality education opportunities from early childhood through 
life in accordance with a tribe's needs for cultural and economic well-
being, in keeping with the wide diversity of Indian tribes and Alaska 
Native villages as distinct cultural and governmental entities. The BIE 
is to manifest consideration of the whole person by taking into account 
the spiritual, mental, physical, and cultural aspects of the individual 
within his or her family and tribal or village context.
    Unfortunately, the BIE is failing its mission by inadequately 
educating our children. Reform, without abrogating the federal trust 
responsibility and treaty obligations, is needed within the Department 
of the Interior (DOI). Agency reform should begin locally in BIE 
schools and at the direction of our tribal leaders and Native education 
stakeholders. To ensure the support of our communities, the Federal 
Government must work with tribal leaders and experts in order to ensure 
change addresses the concerns and prerogatives tribes have called for 
over the last several decades. Tribally controlled contract and grant 
schools are the future of Indian education and as such, those 
institutions of self-determination must be supported based on local 
needs, not at the direction of the Department or the Administration.
    The following recommendations are based on resolutions passed by 
our membership as well as through local work with tribal leaders and 
Native communities. However, it is important to note that NIEA is still 
awaiting additional input from our stakeholders who attended recent 
consultation sessions on BIE reform. This testimony should not be 
considered our comments on the Indian Education Study Group's report on 
the BIE. This testimony is to serve as general recommendations for 
improving the federal education system serving Native students to make 
sure the system has the tools necessary for strengthening and 
supporting tribal self-determination.
I. Strengthen Tribal Self-Determination
    The Federal Government implemented assimilation and termination 
policies in the 19th and 20th Centuries by breaking down traditional 
family patterns in Native communities and forbidding the use of 
cultural traditions. Education systems, such as boarding schools, 
supported these efforts and restricted traditional family structures. 
The United States then separated Native children from their parents and 
tribal families in order to destroy cultural kinship. Through these 
systems, the U.S. robbed tribes of their ability to educate their 
children.
    As tribes fought and achieved the ability to once again exercise 
their inherent rights as sovereign governments in the latter 20th 
Century, tribes began contracting with the Bureau of Indian Affairs 
(BIA) to administer education functions under the Indian Self-
Determination and Education Assistance Act of 1975 (P.L. 93-638). 
However, as a result of history and legal statutes, the Federal 
Government had positioned itself as the direct education provider for 
many Native communities. Through this context, the Federal Government 
created an inability for BIE reform to succeed internally because the 
system functioned and continues to operate under a model rooted in 
outdated practices that often run counter to tribal self-determination.
Precedence of Self-Determination
    Even as tribes reasserted their ability to perform some education 
functions under statutes, such as the Tribally Controlled Schools Act 
of 1988, other legal barriers such as those under Public Law 107-110, 
the Elementary and Secondary Education Act (ESEA), continue to drive 
the Bureau's means for working with tribes, families, and students. As 
a result, BIE schools working with local communities have developed an 
internal bureaucratic mentality that tribes often work to support local 
Bureau schools rather than BIE schools serving tribes and supporting 
self-determination.
    Congress should create federal policy and ESEA reform that ensures 
the BIE collaborates with and supports tribes in their self-
determination, rather than dictating local educational policy on tribal 
communities. To facilitate the critical reform that is needed, Congress 
should provide BIE the tools and resources necessary for developing its 
capacity to support tribes as they administer education functions and 
ensure that self-determination statutes take precedence over ESEA and 
other restrictive mandates.
II. Support and Strengthen Native Language and Culture
    Native language revitalization and preservation is a critical 
priority to tribes and Native communities because language preservation 
goes to the heart of Native identity. In many ways, language is 
culture. Learning and understanding traditional languages helps Native 
students thrive and is a critical piece to ensuring the BIE is serving 
Native students effectively. Immersion programs not only increase 
academic achievement, but guarantee that a student's language will be 
carried forward for generations. Our communities' unique cultural and 
linguistic traditions are crucial for the success of our students and 
are critical cornerstones for providing relevant and high quality 
instruction as part of an education that ensures Native students attain 
the same level of academic achievement as the majority of students. 
NIEA requests the Committee work with tribes and the BIE to ensure that 
reform strengthens the ability of the Federal Government to support 
tribes in the delivery of culturally-relevant curricula.
Expansion of Language Immersion and Congressional Intent
    NIEA supports expanding immersion opportunities in BIE supported 
schools. P.L. 100-297, Tribally Controlled Grant Schools Act, and P.L. 
93-638, Indian Self Determination and Education Assistance Act, as well 
as P.L. 109-394, Esther Martinez Native American Languages Preservation 
Act of 2006, all promote a policy of both self-determination and 
investment in Native languages--specifically language immersion 
schools. Further, the White House Initiative on American Indian and 
Alaska Native Education promises to support expanding opportunities and 
improving outcomes for Native students by promoting education in Native 
languages and histories.
    NIEA acknowledges that exemplary immersion models, such as those at 
Niigaane Ojibwemovin Immersion Program and School serving the Leech 
Lake Band of Ojibwe and Rough Rock Community School serving the Navajo 
Nation, have won the prestigious NIEA cultural freedom award for their 
efforts in full-day language immersion. However, federal agency 
interpretation and administrative procedures often restrict tribes from 
running schools, such as Niigaane and Rough Rock, by creating barriers 
to tribal self-determination. To begin addressing this issue, NIEA 
requests that congressional intent of legal statutes, rather than 
agency interpretation, be utilized so that tribes can deliver effective 
education programs.
III. BIE Internal Reform
BIE as a Technical Service Provider
    As the Administration progresses its reform agenda for the BIE, 
Congress should work with tribes and the Administration to ensure the 
BIE becomes a technical assistance provider that has the ability to 
strengthen tribal self-determination in education. The BIE should 
become an entity that assists tribes who wish to participate in the 
delivery of their children's education by working with tribes as they 
strengthen their education agencies. Since the late 20th Century, 
Congress has worked to strengthen tribal capacity to directly serve 
their citizens in other services. In this spirit, tribes should have 
the same ability as state and local education agencies to administer 
education. To assist those efforts, the BIE should become a central 
nexus that provides technical assistance to its local BIE contract and 
grant schools, charter, and even public schools where requested.
    The BIE should become an entity similar to a Regional Educational 
Laboratory (REL) that would, rather than providing direct education to 
Native students, work in partnership with tribes, tribal colleges and 
universities, school districts, and state departments of education, to 
be a technical and best practices provider that collects and utilizes 
data and research to help tribally-administered schools improve the 
academic outcomes of Native students.
BIE Capacity Transition
    In order to successfully reform the BIE into a technical provider 
and capacity builder, DOI and the BIE staff need a fundamental shift in 
thinking in Washington and regionally. Some staff at the BIE have 
served their communities for decades, which builds experience and 
expertise. However, that expertise is based on a flawed and outdated 
model that has yet to decrease the achievement gap among our students 
and the majority population. NIEA suggests that DOI ensure educators 
and administrators understand the needs of their local Native 
communities and prepare them to engage and work with tribes and their 
education agencies.
    BIE reform should not be an internal, Bureau-wide capacity building 
effort set on hiring an influx of new thought leaders in Washington. 
Rather, we need a change in capacity and a restructuring that supports 
community collaborators who will sit with a principal chief in Oklahoma 
or a pueblo governor in New Mexico to find solutions to local problems. 
Simply, we need the right people in the right positions supporting 
tribal capacity to administer education services. Tribal leaders 
understand their children best and tribal communities can better 
address a child's unique educational and cultural needs. Rather than 
directly educating Native students, the BIE should be situated to 
provide support services to tribal leaders and education agencies, 
similar to the Indian Health Service's (IHS) relationship with tribes 
as they administer health services.
IV. BIE Funding
    As tribes work with Congress and the Administration to reform 
education institutions and increase tribal responsibility in 
administering education, federal leaders should also increase treaty-
based appropriation levels for tribal governments and Native education 
institutions in order to repair the damage caused by shrinking budgets 
and sequestration. Historical funding trends illustrate that the 
Federal Government is abandoning its trust responsibility by decreasing 
federal funds to Native-serving programs by more than half in the last 
30 years. These shortfalls persistently affect the ability of the BIE 
to provide transportation services, construct new buildings, and 
effectively educate Native students. These issues would be unacceptable 
in any other school system and must be addressed now if we are to 
systemically improve the BIE's ability to serve our communities and 
strengthen self-determination.
BIE Budget Authority
    For too long, bureaucratic issues between the BIA and the BIE have 
decreased the ability of the BIE to meet the educational needs of our 
youth. Congress and federal agencies should fund Native education 
programs that strengthen tribal self-determination, such as tribal 
education agencies, and ensure adequate resources are appropriated to 
the BIE to address tribal concerns and needed systemic changes. To 
start, the Department of the Interior should transfer budget authority 
from the BIA to the BIE to increase its efficiency and effectiveness by 
decreasing the bureaucracy inhibiting funds from positively impacting 
Native students and tribal self-determination.
    As a result of BIA authority over the BIE budget, the BIE is often 
low in priority when compared to other programs. Recently, internal BIA 
FY 2014 Operating Plan reallocations reduced BIE Johnson O'Malley 
Assistance Grants by $170,000 as well as cut BIE higher education 
scholarships. While the reduced lines were under tribal priority 
allocations, such reductions were not authorized by tribal leaders but 
were a result of internal redistributions in the agency. Although the 
reductions are small as compared to the overall increase in the BIA 
budgets after Congress postponed sequestration, rescissions without 
appropriate consultation are unacceptable. Providing the BIE the 
ability to develop its own budget would ensure the BIA cannot 
reallocate funds from the BIE as it would be a separate Bureau with its 
own budget authority.
BIE Grant Pilot
    As the BIE works to support tribes and their education agencies, 
BIE reform would be strengthened by providing funds for a competitive 
grant pilot that incentivizes capacity building in tribally-controlled 
grant and contract schools. This grant program would be modeled on best 
practices from existing competitive grants in use within the Department 
of Education. For $3 million, the BIE would administer a pilot to spur 
urgent and abrupt systemic reform that would substantially improve 
student success, close achievement gaps, improve high school graduation 
rates, and prepare students for success in college and careers.
    The three-year competitive incentive-based grant, similar to 
existing Race to the Top initiatives for which BIE continues to be 
excluded, would provide resources to tribes for accelerating local 
reforms and aligning education services to tribal education priorities 
that include language and culture. Further, performance metrics for the 
grant would include student attendance rates, graduation rates, college 
enrollment rates, and measures on educator accountability. In order to 
catalyze reform efforts and create a set of high-performing, tribally-
controlled grant schools, the BIE would also provide on-going technical 
assistance to build the capacity of those schools that applied for, but 
did not receive, a grant.
Tribal Grant Support Costs
    NIEA was happy to see Indian Health Service and BIA contract 
support costs fully funded under self-determination and self-governance 
contracts and compacts this year. However, Public Law 100-297 grant or 
Public Law 93-638 self-determination contracted BIE schools were exempt 
from full funding, which will result in budget shortfalls. Full funding 
for tribal grant support costs in FY 2015 and subsequent years is just 
as important as full funding for contract support costs as these 
dollars help tribes expand self-determination and tribal authority over 
education programs by providing funds for administrative costs, such as 
accounting, payroll, and other legal requirements. The BIA currently 
funds only 65 percent of support costs in the 126 tribally managed 
schools and residential facilities under the BIE purview. This forces 
the schools to divert critical classroom education funding in order to 
cover unpaid operational costs, which make it unrealistic to improve 
educational outcomes and bridge the achievement gap among Native and 
non-Native students.
Connect BIE Schools to Educate
    The President's goal in the ConnectED Initiative is to connect 99 
percent of America's students to the Internet through high-speed 
broadband by 2018. Unfortunately, tribal areas are already far behind 
their counterparts due to geographical isolation, ineligibility, and 
inadequate capacity to apply for funds. The BIE recently reported 130 
to 140 BIE schools applied for and received E-rate funds over the last 
nine years-out of a total 183 BIE entities. However, of the E-rate 
funds committed for these BIE schools over the past nine years, only 60 
percent was actually spent. Furthermore, many eligible BIE schools did 
not apply because they did not meet the 80 percent threshold to receive 
a discount. These statistics illustrate persistent gaps in E-rate 
adoption among BIE schools that are similarly prevalent in other 
Native-serving institutions due to their geographical isolation and 
inability to meet Universal Service Administrative Company (USAC) 
guidelines. If BIE schools are, on average, spending just 60 percent of 
E-rate awarded funds then there should be further collaboration among 
Congress, the Federal Communications Commission (FCC), and BIE to 
ascertain these reasons and work to ensure internal broadband capacity 
is present.
    We must work together to make sure tribes and Native-serving 
schools benefit under this initiative. Limited data already suggests 
overall connectivity funding for schools and libraries on tribal lands 
is disproportionately low and inadequate for connectivity. To prevent 
tribal nations and their citizens from becoming the one percent that 
remains disconnected, this Committee should work with the FCC, the BIE, 
and tribes to decrease barriers that hinder tribal participation in the 
E-rate program and 21st Century education.
V. Elevate Native Education
Deputy Assistant Secretary of Indian Education
    Tribes have spoken loudly that Indian education belongs within the 
Department of the Interior in order to ensure the federal trust 
responsibility is upheld. Unfortunately, DOI continues to fail at 
including education experts and educators in key policy and budget 
decisions. As we work to find ways to increase the effectiveness of the 
BIE and improve the state of Native education, we must have people 
leading in Washington who understand the needs of our students and have 
the authority to drive successful reform.
    Our students need a federal leader to address colleagues and the 
President on the Federal Government's trust responsibility to Native 
education. We request this Committee pursue a means to create a Deputy 
Assistant Secretary of Indian Education in order to elevate the needs 
of our students. While the recent attention on the BIE is welcome and 
necessary, this focus often ebbs and flows. There should be an advocate 
in DOI that works with tribes to maintain this focus and ensure our 
Native students become the highest-achieving students in the country 
and that the BIE is supporting tribes who are running state of the art 
schools.
DOI Tribal Education Budget Council
    We also request that DOI create a Tribal Education Budget Council 
that functions similar to the Tribal Interior Budget Council and is 
presided by tribal leaders and the Deputy Assistant Secretary of Indian 
Education. This would help guarantee that education issues do not fall 
in priority. Tribal leaders are often forced to choose between issues 
and focus on providing for present-day emergency measures, such as fire 
prevention or medical funds, as compared to long-term preventative 
solutions to education. Providing equity to education and a venue to 
address our students' needs is crucial to elevating Native education 
and ensuring that persistent issues are addressed.
Conclusion
    NIEA appreciates the continued support of this Committee and we 
look forward to working closely with its members under your leadership. 
We share your commitment to Native education.
    Strengthening our partnership will ensure all Native-serving 
schools are as effective as possible and that tribes have more access 
to administer education services. We must make sure BIE has the tools 
necessary to improve and assist tribes and Native communities in 
providing services to our citizens, but only if that is supported by 
the local community. This effort cannot be a top-down approach, but a 
measure created through grassroots support at the tribal level. The 
current proposal for BIE reform, while well intentioned, was not a 
direct result of tribal consultation. We appreciate the efforts and 
ideas, but without tribal support, we cannot expect BIE reform to 
succeed.
    To achieve success, there must be collaboration among all entities 
that touch a Native child's life and at all levels--tribal, federal, 
state, and local. We appreciate this 2014 education series because it 
is difficult to speak of increasing the success of Native students when 
addressing only one facet of the education system. Only by working with 
all stakeholders in all education systems will we increase our 
students' preparedness for success. Once again, thank you for this 
opportunity.

    The Chairman. Mr. Monette, thank you very much.
    Let me just say this. Your last point about working 
together we saw is a fact. That is not us with you or you with 
us, it is the Department and you and us and tribal leaders and 
everybody getting together that can make a big difference. I do 
appreciate Dr. Roessel staying and listening to the testimony. 
I very much appreciate that.
    Senator Johnson, did you have some questions?
    Senator Johnson. Yes, thank you, Mr. Chairman.
    President Brewer, thank you for your excellent testimony 
before us today. Can you expand on how students are impacted by 
budget shortfalls for facility maintenance and construction 
funding?
    Mr. Brewer. Thank you for that question, Senator Johnson. 
Dayna Brave Eagle is the Indian Education Director from Pine 
Ridge. If it would be possible, could I bring her up and have 
her answer?
    The Chairman. Absolutely.
    Ms. Brave Eagle. Good afternoon. I would like to respond to 
that question, Senator Johnson. Because of the shortfalls in 
facility and operations, schools are having to use 
instructional dollars to cover these costs. We are not going to 
allow our children to go hungry or without adequate 
transportation or without heating the school buildings. So a 
potion of the instructional funding is used to cover these 
shortfalls, thus causing shortfalls in academic resources, 
updated curriculum and highly-qualified teachers.
    Unsafe conditions of current school buildings is creating 
an non-conducive learning environment for our students. These 
are the shortfalls we are experiencing because of facilities.
    Senator Johnson. Have you been forced to use ISEP money in 
exchange for propane gas and transportation issues?
    Mr. Brewer. When I was teaching, we couldn't do that. But 
now they are doing it. And what happens is the school has to 
make a decision to buy fuel or to lay off a teacher. And that 
is what is happening. Instructional money is being used to 
cover these costs.
    Senator Johnson. President Brewer, how is the BIE creating 
barriers for tribes when it comes to self-determination and 
what are some of the programs that your schools would like to 
implement but cannot? Either one of you.
    Mr. Brewer. I will turn this over to Dayna. But the biggest 
thing is funding. That is the biggest issue right there, is we 
are not able to do any of those programs or anything, or meet 
the needs.
    Senator Johnson. Besides language instruction, what other 
programs can you do, Dayna?
    Ms. Brave Eagle. One of the biggest programs that the BIE I 
know as a part of the BIA is the Maximal program, which does 
the facilities. It used to be called the FEMA system and then 
they switched over to Maximal. Well, Maximal is not fully 
functioning right now, so a lot of our schools are unable to 
log into the Maximal and log in all their backlog on 
facilities. That is a program that has been imposed on school 
systems but is not fully functional.
    The other thing is partnership. The tribal education 
agencies have formed partnerships with the BIE and have MOAs 
and agreements with the BIE that are not upheld also. These 
MOAs are in school improvement grants, such as professional 
development, curriculum building, teamwork and partnership with 
the Bureau, which have not been fully implemented or successful 
at the partnership.
    Senator Johnson. President Brewer or Dayna, what are some 
of the key priorities that you would like to see included in 
the BIE reform plan? Has the BIE consulted with you?
    Mr. Brewer. One of the things I have to say, Senator, is 
that we are against the reform plan. We believe that the tribes 
should be empowered to make these decisions. We really feel 
that when you look at it, the end result is giving more power 
to the BIE director. I believe that power should be with the 
tribes, let us make those decisions, empower us.
    Ms. Brave Eagle. I have two solutions to some of the things 
that came up. One solution on facilities, we do understand that 
facilities comes through the BIA. We are asking that it comes 
through the BIE. We are asking that it be forward funding, like 
all of our other instructional dollars that adhere to P.L. 100-
297 and that our schools, our educational entities, receive 
forward funding in facilities.
    Another suggestion on the FEHB is that the Bureau, the BIE 
ask their solicitor to reconsider her opinion, her legal 
opinion that our 297 schools are not 638 contracts, that that 
opinion be reconsidered with all the documents that have come 
forward.
    Senator Johnson. Thank you. My time is expired, but I 
suggest that you, the Chairman and the Ranking Member pay close 
attention to what these individuals have to say.
    The Chairman. Thank you, Senator Johnson, and we will.
    Mr. Benally, I want to talk about the BIA proposed redesign 
with you. Could you briefly tell me your opinion of the 
proposal, and what its impacts might be on the Navajo Nation?
    Mr. Benally. We have been visiting on this last couple of 
weeks with the consultation, I think it was within the last 
year that it was initiated. One of the things that was 
mentioned here earlier about incentive grants, we have received 
nothing in writing. It has been verbally shared with us. So to 
that extent and the criteria that it has, we are not sure about 
that.
    The other thing is that as far as 297-638, the contract 
grant school authority that rests with those laws, doesn't 
really give more authority to the tribe. Do we have fiscal and 
academic authority that increases those authorities in those 
areas, we don't know that. So until we see what the criteria 
are in there, we won't know what it holds for us.
    The Chairman. Your testimony mentioned issues related to 
teacher retention at BIE-funded schools. Your assessment of why 
the teacher turnover rate is so high?
    Mr. Benally. Teacher turnover rate, I have been a teacher, 
I have been a principal, I have been a superintendent. We 
recruit all the way to Indiana, Florida and all the way up into 
the northeast. We bring teachers from there onto Navajo. But 
for whatever reason, we are pretty isolated. When you say 
rural, Webster's definition of rural school, I don't think it 
really means what it means. When you take it to the third 
exponent, that is where we are in some of these schools. So 
when it is pretty quiet and when the wind is talking, maybe it 
is a little bit scary to some of these teachers. They stay 
there one year or two years, and they leave.
    So one of the solutions that I mentioned is that our 
scholarship, we have 16,000 applicants, but only half of those 
are granted. So people from the same area, people from there 
educate them, because they are from there, they have no place 
else to go. So if we have that, we are hoping that that is 
going to be fulfilled.
    And another thing too is that because of these 
requirements, some of these laws, some of these laws, No Child 
Left Behind, and highly-qualified, some of those laws, because 
we have to do that, we have to take a teacher out of a 
classroom or take a sub that is doing good out of a classroom 
to put somebody else new in there because of some of these 
laws. So the law is good, it has a good intention, but at the 
same time, we hurt our children.
    The Chairman. Let's talk a little bit about No Child Left 
Behind. Your testimony talks about clarifying what is meant by 
alternative definitions of AYP in the Reauthorization Act, the 
Elementary-Secondary Education Act. What sort of reforms are 
you looking at?
    Mr. Benally. One specific point that I want to bring out, 
and one of my colleagues has shared that, dropout rate.
    The Chairman. Yes.
    Mr. Benally. Our children are in an identity crisis. Over 
here is grandpa, and over here is mainstream. And our children 
are in there somewhere. As far as their purpose, of knowing 
where they want to belong, there is a confusion. So our intent 
from here is that within that alternative formula, as far as 
calculation, as far as content, we want to put character 
education in there. We want to mandate it such that the school 
has to do it. Because they say that, well, it's at home, but 
our children leave, and they are at school at 8 o'clock, and 
they come back at 6 o'clock, 4 o'clock in the evening. So in 
those, weighing those options, it seems that at school, that is 
where it needs to happen. That is where they have for the 
purpose of doing that, so the identity crisis is not there, 
that you know your purpose when you go to the school, it is 
there.
    So that is one of the unique things of the alternative 
formula that is going to be embedded in there, that we 
requesting an amendment to that law for Indian Country.
    The Chairman. Thank you. Thank you very much, Mr. Benally.
    Mr. Monette, does NIEA have a position on the reform plan, 
the proposal?
    Mr. Monette. Yes. Yes, we do. We believe that there does 
need to be a reform at all levels within the DOI, all the way 
down to the BIA ands BIE. Since the late 20th century, Congress 
has worked to strengthen tribal capacity to directly service 
citizens and other services. So in this sphere, tribes should 
have the same ability to manage their own education systems.
    As tribes work to increase self-determination, we need a 
BIE that can support tribes in their efforts and provide 
technical assistance rather than providing direct educational 
services.
    The Chairman. So let me ask you this. Local control is 
good, especially when it comes to education.
    Mr. Monette. Yes, sir.
    The Chairman. Are you concerned about capacity of the 
tribes, to be able to take care of the education at the local 
level? And I am talking overall. Are you concerned about that 
issue, or that is not a problem?
    Mr. Monette. We are concerned about that issue, and we do 
plan to work in consultation with the BIE on that.
    The Chairman. Perfect. I think it is very, very important.
    Let me talk a little about your testimony. You talked about 
the problem with the BIE being low on the priority list of the 
BIA budget, which is a double negative, it takes it down quite 
a ways. You recommend that the Department of the Interior 
transfer the BIE budget authority to the BIE itself. What 
response, first of all, have you floated this out to the 
department and if you have, what has been the response?
    Mr. Monette. I can't answer that question as President-
Elect. As a board member, our executive director can certainly 
get that question back to you.
    The Chairman. I would love that if you could, just try to 
get an idea.
    Let me go back to you, Mr. President Brewer. In your 
testimony, you had concerns about the hiring functions at BIE. 
As I understand it, currently BIA staff, BIA staff with no 
background in education conduct the hiring process for BIE. I 
am going to tell you, this puts the BIA staff at a tremendous 
disadvantage. If you don't have a background in education, I 
think that is a problem. I think this is a minimum change that 
we could all agree on.
    What is your perspective on that?
    Mr. Brewer. The BIE, we have one school that is BIE-
operated at Pine Ridge. Their turnover is very low because they 
have good salaries there, Federal employees. So they have very 
low turnover.
    The Chairman. That is good news.
    Mr. Brewer. Yes, it is. But our grant schools, they have a 
problem there. When you asked Dr. Roessel the number of 
vacancies, right now we have almost a third of our total 
teachers who are vacancies right now. I believe that is over 
40, close to 40 vacancies that we have right now and that we 
have to fill before this new school year starts. That is a 
problem there.
    The Chairman. I just want to say thank you all very much 
for your testimony. I very much appreciate it. Dayna, thank you 
for joining the panel.
    We have issues here. One last thing I will say, as far as 
language immersion goes, I happen to have a little bill that 
might be able to help you guys out, and we are going to push 
that. So thank you for bringing that up.
    Stay involved, this is a critically important issue if we 
are going to break the cycle of poverty in Indian Country and 
bring it up to where it can be. So thank you all very, very 
much.
    Again, I just want to thank the witnesses for their 
testimony, and Dr. Roessel, thank you very much for sticking 
around. I very much appreciate that. I think it speaks to your 
commitment to being a superstar. So we thank you for that.
    The hearing is going to remain open for two weeks for any 
additional comments. With that, this hearing is adjourned.
    [Whereupon, at 4:28 p.m., the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Angela Barney Nez, Executive Director, Dinee Bi 
                  Olta School Board Association, Inc.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
   Prepared Statement of Jon Whirlwind Horse, President, Dakota Area 
                      Consortium of Treaty Schools
Introduction
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee on Indian Affairs, my name is Jon Whirlwind Horse, and I am 
an enrolled member of the Oglala Sioux tribe and President of the 
Dakota Area Consortium of Treaty Schools (DACTS).
    There are fifteen tribes from Nebraska, North Dakota and South 
Dakota represented by our member schools: Oglala Sioux, Omaha Nation, 
Santee Sioux, Winnebago, Spirit Lake Sioux, Turtle Mountain Chippewa, 
Mandan, Hidatsa & Arikara Nations, Standing Rock Sioux, Cheyenne River 
Sioux, Rosebud Sioux, Yankton Sioux, Crow Creek, Lower Brule, Flandreau 
Sioux, and Sisseton Wahpeton Sioux.
    Since 1994, DACTS has been advocating in Congress and the Executive 
Branch for quality school facilities for Indian students so they might 
pursue the best education possible. On behalf of DACTS, I submit this 
Prepared Statement for the Record and want you to know how much our 
member tribes appreciate your holding this important hearing.
Background and History of the School Construction Bond Concept
    Beginning in 1994, the DACTS began working with our friends in 
Congress to address the sad state of school facilities in Indian 
country. The fact is that for many Native kids, the poor condition of 
their schoolhouses makes getting a solid education extremely difficult. 
Leaky roofs and shabby school construction make life in the cold, harsh 
winters on the Plains difficult.
    Over these twenty years, the executive and legislative branches 
have made efforts to get new school facilities built by appropriating 
additional funds to the Interior Department. From fiscal years 2001 to 
2009, $2.013 billion was appropriated for replacement school 
construction and facilities improvement and repair. Beginning with the 
American Recovery and Reinvestment Act in 2009 (``ARRA,'' a/k/a the 
Stimulus Act) through fiscal year 2014, $708 million was appropriated 
for these two accounts.
    While we appreciate the additional appropriations, DACTS also 
proposed a creative way to finance more new school construction in a 
much faster way. The proposal was to authorize Indian tribes to issue 
bonds to raise capital and, in turn, use the funds raised to build new 
schools. Unlike traditional bond financing, the purchasers of these 
bonds would receive tax credits in lieu of interest which they would 
use to offset taxes from income.
Congressional Support for School Construction Bonds
    In the early 2000s, Senators Tim Johnson, Thad Cochran, and Patty 
Murray and former Senators Ben Nighthorse Campbell and Tom Daschle 
introduced legislation to authorize the establishment of this bonding 
mechanism. While these bills were not enacted, they laid the groundwork 
for partial success which came with passage of the ARRA.
    The ARRA contained authority for Indian tribes to issue $400 
million in tax credit allocation for 2009 and 2010. While no tribe took 
advantage of the program, DACTS is reliably informed by the Congress 
that this $400 million remains available for use. One thing the ARRA 
bond program did not include was an escrow account the issuing tribes 
would use to repay principal once the bonds are issued.
    Like the readers of this article, I am frustrated and saddened by 
the lack of progress Congress is making on any number of fronts. With 
the $400 million in tax credit authority still on the books, all that 
is left to do is establish the escrow account. I believe the time is 
right for Congress and the Administration to make this a priority in 
2014.
    When she testified before the Senate Committee on Indian Affairs in 
May 2013, Interior Secretary Sally Jewell said that the state of Indian 
education--student performance as well as the condition of Bureau of 
Indian Education facilities--is ``an embarrassment to you and to us.''
    After becoming Chairman of that Committee in February 2014, Senator 
Jon Tester issued a very strong opinion piece about the importance of 
Indian education. He said that ``education is the foundation for sound 
life choices that increase economic security and helps us climb the 
ladder of success.''
    These statements by the Secretary and the new Chairman demonstrate 
that we have friends in high places, as they say.
    That, together with the bi-partisan, bi-cameral support Indian 
issues traditionally have enjoyed, makes me believe success and hope 
for new schools for Indian kids are just around the corner.
    Thank you for your leadership on these important matters and your 
ongoing support for the well-being of Native people across the country.
                                 ______
                                 
  Prepared Statement of Albert A. Yazzie, President, Crystal Boarding 
                       School Board of Education
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Tuba City Boarding School Governing Board--Letter to Sally Jewell, 
    Secretary--Interior, U.S. Department of the Interior and Kevin 
                     Washburn, Assistant Secretary
     RE: American Indian Education Study Group Tribal Consultation: 
Proposal to Redesign the U.S. Department of Interior's Bureau of Indian 
Education
     Dear Secretary Jewell and Assistant Secretary Washburn:
     As the Navajo Nation Local Control Education Governing Board we 
are very thankful to be given the opportunity to provide additional 
comments on the ``Draft Proposal to Redesign the U.S. Department of 
Interior's Bureau of Indian Education (Dated: April 17, 2014).'' In 
many respects, we are very supportive of the goals, objectives, and 
statements contained in the draft proposal, especially with its 
emphasis on promoting tribal control, achieving high performing 
schools, as well as and increasing and improving services and support 
that builds tribal capacity. In line with these goals, the Navajo 
Nation reiterates its prior position regarding the American Indian 
Education Study Group and expresses strong support for a Navajo Nation 
State Education Agency, the Navajo Nation's alternative definition of 
Adequate Yearly Progress (AYP), and Navajo Nation's Alternative 
Accountability Workbook.
     In particular, we strongly support the goals contained in the 
working draft because it:

     1. Promotes Tribal Control

  <bullet> Align BIE's path forward with President Obama's policy of 
        self-determination for tribes because tribes understand the 
        unique needs of their communities best.

  <bullet> With a careful transition plan in place, gradually transform 
        BIE's mission from running schools to serving tribes to conform 
        with the reality that most BIE schools are now operated by 
        tribes.

    2. Achieve High-Performing Schools

  <bullet> Ensure BIE meets its responsibility that all students 
        attending BIE-funded schools receive a world-class and 
        culturally appropriate education, are prepared for college and 
        careers, and can contribute to their tribe and country.

  <bullet> Provide necessary resources and support (e.g., facilities 
        and human capital) to schools so that they can meet the demands 
        of 21st century teaching and learning.

    3. Increase and Improve Services and Support that Tribal Build 
Capacity

  <bullet> Scale up best practices in successful tribally controlled 
        schools to other schools.

  <bullet> Support chronically failing schools with adequate support 
        and research-based interventions, if necessary.

  <bullet> Provide pathways for tribes that wish to take over control 
        of remaining BIE-operated schools by providing technical 
        assistance and guidance on operating high-achieving schools.

  <bullet> In the December 2011 White House Tribal Nations Conference 
        Progress Report, the Obama administration expressed strong 
        support for a proposal to enhance the role of tribal 
        educational agencies through a new pilot authority, called the 
        State Tribal Education Partnership (STEP) grant,5 which would 
        support tribal educational agencies in working closely with 
        public school districts and schools located on reservations. 
        This pilot authority and grant presently allows the Navajo 
        Nation to enter into collaborative agreements with State of New 
        Mexico and two of the largest public school districts serving 
        Native American students in the United States and to assume 
        responsibility for some state-level functions in administering 
        ESEA programs.

     We also agree with key priorities highlighted in the draft 
proposal because it also provides for:

  <bullet> World Class Instruction for all BIE Students--Challenge each 
        student to maximize his or her potential and be well-prepared 
        for college, careers and tribal/global citizenship.

  <bullet> Highly Effective Teachers and Principals--Help tribes to 
        identify, recruit, retain and empower diverse, highly effective 
        teachers and principals to maximize the highest achievement for 
        every student in all BIE-funded schools.

  <bullet> Agile Organizational Environment--Build a responsive 
        organization that provides the resources, direction and 
        services to tribes so that they can help their students attain 
        high-levels of student achievement.

  <bullet> Budget that Supports Capacity Building Mission--Develop a 
        budget that is aligned with and supports BIE's new mission of 
        tribal capacity building and scaling up best practices.

  <bullet> Comprehensive Supports through Partnerships--Foster 
        parental, community and organizational partnerships to provide 
        the emotional and social supports BIE students need in order to 
        be ready to learn.

     In line with those goals, we also recommend:

        1. In line with identifying, recruiting, retaining highly 
        effective teachers/principals, and building teacher/principal 
        capacity (human capital) we strongly recommend that the BIE and 
        other appropriate government agencies to enact a teacher/
        principal scholarship program that is very similar to the 
        Indian Health Service (IHS) scholarship program. Ever since the 
        IHS Scholarship Program's creation in 1977, the program has 
        successfully supported thousands of American Indian and Alaska 
        Native students in their quest for a health/medical professions 
        degree leading to a career in Indian health. A scholarship 
        program that is specifically targeted to identify, recruit, and 
        support teachers, including principals, especially in hard-to-
        fill Science, Technology, Engineering, Mathematics (STEM) 
        areas, would significantly help our schools to meet the demand 
        and need for highly effective teachers/principals. Not only 
        would such a scholarship program enable tribes to build 
        capacity, because scholarship recipients would be committed to 
        serving several years on the Navajo Nation or in other Native 
        American schools.

        2. Changing, amending, or waiving rules, regulations that 
        negatively impact rural schools such as the regulation [25 
        C.F.R.  36.11(a)(5)] that limits the number of days that 
        schools can employ long-term substitute teachers. Because of 
        extreme remoteness and difficultly hiring highly effective and 
        fully qualified and licensed teachers, many of our schools have 
        little to no choice but hire long-term substitute teachers who 
        may need to teach students much longer than the existing 
        regulation allows. Changing, amending, or waiving this 
        regulation may allow our schools to provide the continuity in 
        instruction that students need until a fully qualified and 
        licensed teacher can be hired to fill that position.

        3. Any education plan to reform and restructure the BIE must 
        also provide strong support, including funding, to identify, 
        recruit, and enhance the role and capacity of highly effective 
        bilingual teachers. There is statistically significant research 
        that shows that students who are educated in their language and 
        culture perform better academically, while also reinforcing 
        their self-identity, and preserving their language and culture. 
        At the moment, many of the existing bilingual teachers who 
        possess strong content knowledge, including the ability to 
        effectively teach Navajo language and culture, are on the verge 
        of retirement or leaving our schools, which further complicates 
        attempts by tribes to preserve and maintain our language and 
        culture. The Navajo Nation has lead the way in many respects, 
        by working with 3 different states to enact alternative teacher 
        licensing regulations, which presently allows persons who are 
        knowledgeable and competent in Navajo language and culture to 
        teach in our schools. We have also enacted the Navajo Nation's 
        Five (5) Content Standards (Navajo Language, Culture, History, 
        Government, (Character), which can readily be incorporated into 
        many school's curriculums because it also complements the 
        Common Core State Standards (CCSS).

        4. In light of the recommendations provided in the draft 
        proposal to build tribal control of education and capacity, we 
        also recommend that the BIE (or other appropriate government 
        entities), to consult and meet with tribes such as the Navajo 
        Nation to conduct an evaluation/assessment of a tribe's 
        existing capacity or provision of funding to accomplish that 
        objective.

    As we move forward with redesigning/transforming the Bureau of 
Indian Education (BIE) and improving the quality of education that our 
Navajo/Native American students receive, it is extremely important to 
remember that we are fighting for the lives of our children and that we 
can no longer afford to lose another generation of young people to a 
failing education system or to continue to make excuses for failure and 
low expectations. We must always put the needs of our children and 
students first; not adults, special interests, or politics. When we put 
the needs of our students first, it will make many of the tough 
decisions that must inevitably be made, easier, clearer, and worth the 
fight. Thank you.
        Sincerely,
           Marie B. Acothley, Tuba City WNA Board President
                        Juanita Burns-Begay, Vice-President
                                    Sarana Riggs, Secretary
                                     Frank Bilagody, Member
                                       Irvin Begaye, Member
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                             Melvin Monette
    Question 1. Do you think the Bureau of Indian Education (BIE) has 
the internal ability to serve tribes as a capacity builder? If not, 
what Departmental reforms are needed?
    Answer. Not presently. BIE's internal structure inhibits the agency 
from supporting tribal self-determination and increasing tribal 
capacity to deliver education services. Although tribes administer 
education services via tribal grant and contract schools under P.L. 
100-297, Tribally Controlled Grant Schools Act, and P.L. 93-638, Indian 
Self Determination and Education Assistance Act, BIE systemic issues 
inhibit the federal school system from providing the necessary support.
    A fundamental shift, both in Washington and in the field, is 
required in order for the BIE to successfully become a capacity builder 
for tribes. Some Department of Interior (DOI) and BIE staff members 
have served their communities for decades building experience and 
expertise. Yet, much of the past work experience is based on a flawed 
and outdated model that has yet to decrease the achievement gap between 
our students and the majority population. Research and models 
illustrate that Native education success and the health of Native 
communities in general, are best supported by culturally-relevant 
education models. Thus, DOI should ensure the BIE has the ability to 
shift personnel in order to guarantee that tribes and their education 
representatives are working with educators and administrators who are 
willing to utilize education strategies that include and strengthen the 
cultural needs of their local communities.
    Further, NIEA remains concerned with the BIE budget structure. 
Control of BIE's budget, procurement, hiring, and facilities 
maintenance and construction reside not within BIE but within the 
Bureau of Indian Affairs (BIA) and the Deputy Assistant Secretary-
Management (DAS-M). This structure is problematic because of the added 
bureaucracy and abstraction. We maintain that change is necessary for 
leadership stability and accountability within the BIE and hope DOI 
will provide those who best understand the education system more 
autonomy from the BIA. We also recommend that DOI, BIA, and BIE include 
and consult with tribes throughout any process to ensure active 
engagement and inclusion of local funding needs.
    Additionally, a DOI transfer of budget authority would support 
tribal self-determination goals. Budget authority is crucial for 
ensuring the necessary resources are provided to tribes under the BIE. 
If placed in the hands of those directly utilizing the resources, the 
most efficient and effective allocation decisions can be made. This 
budget authority should not create a new budget office within the BIE 
or increase duplication with BIA. Rather, it should allow the BIE 
director and staff to have the ability to fund areas of need and act as 
an internal advocate for the agency. Decades of budget authority within 
the BIA has allowed the BIE to continue underfunded and 
underrepresented within the DOI and in negotiations with the Office of 
Management and Budget (OMB).

    Question 2. Why were only 60 percent of E-rate funds spent over the 
last nine years and what do you think the solution is to make sure 
Indian Country can benefit from this Initiative?
    Answer. There is no definitive reason provided from the BIE. Given 
the other internal issues with BIE, technical reporting of E-rate may 
have fallen aside since the BIE provided their information without any 
explanation. Regardless, statistics illustrate persistently low levels 
of E-rate adoption and spending among BIE schools, which are similarly 
prevalent in other Native-serving institutions due to geographical 
isolation and inability to meet the Universal Service Administrative 
Company (USAC) guidelines. The top three barriers to participation in 
E-rate are lack of awareness, uncertainty of eligibility, and a 
complicated application process.
    The Federal Communications Commission (FCC) has continually 
emphasized that Indian Country represents some of the most unserved and 
underserved areas of the U.S. The data highlighted in our full May 21, 
2014 testimony regarding tribal participation in the E-rate program is 
just a glimpse of this disparity. Part of this can be attributed to the 
rural nature of many tribal lands and the consequent difficulty of 
broadband deployment to tribal schools, including BIE, and libraries. A 
prevalent lack of knowledge about the E-rate program also exists as 
does a pervasive absence of training for tribal schools and libraries 
in regards to the application process and USAC reporting requirements.
    Resources should be expended to close this education gap for tribal 
school and library administrators. First, the FCC should direct its 
Office of Native Affairs and Policy (ONAP) to develop educational 
materials as part of the FCC's Native Learning Lab. Native Learning 
Labs are instrumental in acquainting participants with the Commission's 
web-based resource systems and applications. Many tribes have found the 
Native Learning Lab to be an important tool for educating themselves 
about FCC policies and programs. Unfortunately, the Native Learning Lab 
does not contain resources to assist in E-rate compliance. Adding such 
materials would introduce tribes to the program while providing 
essential guidance on the application and reporting processes.
    Second, the FCC should direct USAC to appoint a formal ``Tribal 
Liaison'' for the sole purpose of assisting tribes in E-rate matters. 
This assistance must take multiple forms. In partnership with ONAP, the 
USAC Tribal Liaison should be charged with the following:

  <bullet> Conducting outreach to tribes, especially those who have not 
        previously participated in the E-rate program;

  <bullet> Providing basic training and developing modules for the E-
        rate program;

  <bullet> Attending significant national and regional tribal meetings 
        where BIE, tribal school, and library administrators are 
        present;

  <bullet> Developing educational materials that will be part of the 
        Native Learning Lab, and providing these material directly to 
        tribes via web portal or physical hard copy;

  <bullet> Providing assistance to tribal school and library awardees 
        to comply with E-rate regulations; and

  <bullet> Ensuring accessibility to tribes during critical times of 
        the annual funding cycle to answer questions and provide 
        additional assistance as needed.

    Most importantly, the USAC Tribal Liaison must be someone whom 
Indian Country can trust to assist them. Throughout the years, Indian 
Country has come to trust that the staff of ONAP is there to provide 
assistance on all Universal Service Fund matters. It is important that 
the USAC Tribal Liaison also be committed to working with Indian 
country in a similarly respectful manner.

    Question 3. What have you seen as the biggest impact recent budget 
shortfalls have had on the ability of the BIE to provide quality 
education? Is it teacher turnover, condition of schools facilities and 
transportation, materials, etc.?
    Answer. Budget shortfalls have a wide-ranging impact on the ability 
of the BIE to effectively educate Native students. No one impact should 
be compared to others since BIE education programs should be fully 
funded as part of the federal trust responsibility to tribes. With that 
said, however, a student cannot learn, instructors cannot effectively 
teach, and a school cannot attract effective personnel if the structure 
itself is inadequate and in a state of disrepair.
    Insufficient school replacement funding has a wide-ranging effect 
on a number of issues affecting Native student outcomes in BIE 
schools--including those mentioned in the question. Therefore, in the 
NIEA FY 2015 budget document, we expressed the need for school 
construction and repair funding to be set at $263.4 million to ensure 
adequate funds for new school construction, facilities improvement and 
repair, and replacement school construction. Piecemeal construction 
projects are not sufficient with the scope of repairs needed in many 
schools. There must be funding to replace schools where it is needed in 
order to increase the education services provided to Native 
communities. Likewise, there must be accountability in funding 
allocation so that funds can be used efficiently and effectively. 
Transparency is the key to highlighting the correlation between funding 
new schools and increased academic achievement, so the BIA must 
distribute the relevant information to tribes, school administrators, 
Native community leaders, and appropriators.

    Question 4. Your testimony mentions that the BIE is low on the 
priority list within the Bureau of Indian Affairs (BIA) budget, and 
therefore, suggest transitioning BIE budget authority from the BIA to 
the BIE. What response have you received from the Department of the 
Interior about this suggestion?
    Answer. NIEA has not received a response from the Department of the 
Interior regarding our recommendation to transfer budget authority from 
the BIA to the BIE. There has been some concern expressed within OMB 
that any internal DOI shift must not create two separate construction 
offices in each Bureau in order to avoid duplication of services. 
NIEA's proposed solution would not require a separate office within the 
BIE but would provide BIE leadership the ability to work with BIA, DAS-
M, and the OMB during funding negotiations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                           Charles M. Roessel
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Charles M. Roessel

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
